<html>
<title> - STRENGTHENING U.S. LEADERSHIP IN A TURBULENT WORLD: THE FY 2017 FOREIGN. AFFAIRS BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   STRENGTHENING U.S. LEADERSHIP IN A
                  TURBULENT WORLD: THE FY 2017 FOREIGN
                             AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2016

                               __________

                           Serial No. 114-168

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                __________
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE
98-831PDF                         WASHINGTON : 2016

_________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f382f301f3c2a2c2b373a332f713c303271">[email&#160;protected]</a>  

                          
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable John F. Kerry, Secretary of State, U.S. Department 
  of State.......................................................     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John F. Kerry: Prepared statement..................     8

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    77
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Material submitted for the record    79
The Honorable Darrell E. Issa, a Representative in Congress from 
  the State of California: Material submitted for the record.....    84
Written responses from the Honorable John F. Kerry to questions 
  submitted for the record by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    92
  The Honorable Eliot L. Engel...................................    96
  The Honorable Edward R. Royce and the Honorable Eliot L. Engel.   124
  The Honorable Dana Rohrabacher, a Representative in Congress 
    from the State of California.................................   126
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................   127
  The Honorable Joe Wilson, a Representative in Congress from the 
    State of South Carolina......................................   128
  The Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................   135
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................   141
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   142
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................   143
  The Honorable Brendan F. Boyle, a Representative in Congress 
    from the Commonwealth of Pennsylvania........................   151
  The Honorable Matt Salmon, a Representative in Congress from 
    the State of Arizona.........................................   155
  The Honorable Scott Perry, a Representative in Congress from 
    the Commonwealth of Pennsylvania.............................   158
  The Honorable David A. Trott, a Representative in Congress from 
    the State of Michigan........................................   159

 
                   STRENGTHENING U.S. LEADERSHIP IN A
                  TURBULENT WORLD: THE FY 2017 FOREIGN.
                             AFFAIRS BUDGET

                              ----------                              


                      THURSDAY, FEBRUARY 25, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    This morning the committee once again welcomes Secretary of 
State John Kerry to consider the department's budget request.
    When Secretary Kerry last appeared before us, he was 
presenting the Obama administration's nuclear agreement with 
Iran. In the 7 months since, the administration got its 
agreement and the Middle East has been transformed, and not for 
the better. Now, with access to $100 billion in unfrozen assets 
and sanctions wiped away, Iran has instantly become the 
dominant country in the region. The Revolutionary Guards, 
already Iran's ``most powerful economic actor,'' in the words 
of the Treasury Department, will only grow more powerful with 
international investment.
    The committee has deep concerns about the way the Obama 
administration--in apparent deference to Tehran--has chosen to 
ignore portions of a new bipartisan law ending visa waiver 
travel for those who have visited Iran. And, Mr. Secretary, the 
committee still awaits a detailed response to its many 
questions about a surprise $1.7 billion payment to the Iranian 
regime that coincided with the release of several Americans.
    Look no further than Syria for the horrible consequences of 
an emboldened Iran. The slaughter continues, and while the 
Secretary does his best to broker some sort of ceasefire, the 
fact remains that Russia, Iran, and Assad are calling the shots 
on the ground. The administration says there is no military 
solution to the conflict in Syria, yet as far as Putin and 
Assad see it, there very much is.
    Of course, Russia's backing of Assad means that ISIS only 
grows elsewhere. The ISIS ``JV team'' has gone global, capable 
of striking in Europe, in Asia, in Africa, and here at home. 
Some 50 ISIS-linked groups have carried out attacks in over 20 
countries. In the failed state of Libya, ISIS has doubled in 
size. Now it has 6,000 fighters in Libya. Every day that ISIS 
advances, it draws recruits to plot new attacks abroad. The 
committee hopes to understand just what is the department's 
strategy to counter violent extremism?
    Looking toward Asia, the committee met yesterday with the 
Chinese Foreign Minister and reminded him that the South China 
Sea must remain open to international shipping and that any 
disputes should be resolved peacefully. Even after the latest 
North Korean nuclear test, Chinese pressure on the regime in 
North Korea is weak. Fortunately, the President just signed 
into law this committee's North Korea Sanctions and Policy 
Enhancement Act. It is now up to the President to enforce this 
law aggressively to cut off the funds now flowing to the Kim 
regime in North Korea.
    After years of congressional pressing, this budget does 
acknowledge the need to respond to Russia's ``weaponization of 
information'' and to ISIS propaganda. But the Broadcasting 
Board of Governors--the international broadcasting agency that 
your predecessor called ``defunct''--remains in desperate need 
of an overhaul. Mr. Secretary, working together, we can, we 
must, fix this.
    Facing a chronic budget deficit, even good programs may not 
be supportable at levels we'd like and that's why I'm proud 
that this committee's scrutiny of the department's new 
diplomatic security training facility helped to save the 
taxpayers over $500 million.
    I now recognize the ranking member, Mr. Engel of New York, 
for any opening comments he may have.
    Mr. Engel. Thank you, Mr. Chairman, and Mr. Secretary, as 
always, welcome to our committee.
    We work very hard on this committee to make and keep it the 
most bipartisan committee in Congress because, when it comes to 
foreign policy, our differences really should stop at the 
water's edge.
    So I want to thank you for your distinguished service to 
our country. I know that you sat on this side of the dais long 
enough to understand Congress' important role in foreign 
policy, and we're grateful for everything you do.
    I will get into a few specifics, but even if we all listed 
our top ten foreign policy priorities, we would just be 
scratching the surface. I can never remember a time when so 
much was happening, all at the same time, all at once.
    If you threw a dart at a map of the world, wherever it 
lands, you'd find an American foreign policy interest. It might 
not be a top priority today because we focus mostly on the 
fires already burning out of control.
    But what happens if we don't provide resources in sub-
Saharan Africa to help consolidate democratic gains? What 
happens to the Asia rebalance if we neglect U.S.-India security 
cooperation?
    What happens if we say tackling climate change and 
protecting the environment just need to wait?
    The issues we ignore today will be the fires burning out of 
control tomorrow, and one thing is certain. Stopping an ongoing 
crisis is a much costlier business than preventing one--in 
terms of American dollars and often American lives.
    So, we need a robust foreign policy. We need to invest in 
diplomacy, development, and foreign assistance in order to 
tackle all of these challenges.
    We need to make the case that modest investments today, 
just over 1 percent of the Federal budget, will pay back huge 
dividends for our security and prosperity tomorrow. We need to 
show that American leadership is always a sure thing because if 
we're not doing this work around the world, no one else will.
    So let me turn to a few particulars. I know and you know, 
Mr. Secretary, that we must continue to hold Iran's feet to the 
fire, and we must make sure that they adhere to the agreement--
to the letter of the law.
    I'm glad the administration imposed new sanctions following 
Iran's ballistic missile test.
    We need to continue making sure Iran, again, is following 
its nuclear deal obligations to the letter. We also need to 
crack down on Iran's other destructive behavior.
    Iran continues stirring up trouble throughout the region, 
sending IRGC commanders to Syria, supporting the Houthis in 
Yemen, spreading instability in Lebanon, and being the main 
supporter of Hezbollah.
    We need to do what it takes to curb Iran's ongoing mischief 
and support our allies and partners in the region, especially 
the state of Israel, which Iran poses an existential threat to.
    In Syria, even with the planned ceasefire, I don't foresee 
a quick end to the crisis, especially now that Russia has 
provided Assad another lifeline.
    The millions of refugees and displaced families desperately 
need humanitarian assistance, and we should support the 
administration's $4.1 billion request.
    But food and supplies won't end this conflict. We need to 
push for a political resolution to get Assad out of power and 
help the Syrian people start rebuilding.
    We also need a new AUMF giving the President what he needs 
to defeat ISIS, while preventing another large-scale open ended 
commitment of American troops on the ground.
    Turning to Ukraine, as fighting again intensifies, we 
cannot take our eye off the ball. Today, Ukraine's top priority 
should be rooting out corruption and pushing reform, and we 
need to support these efforts.
    We need to work with the Ukraine. We need to be a partner 
of Ukraine. A stronger, more prosperous Ukraine stands a better 
chance of turning Putin back.
    And speaking of Putin, we need to let him know that we will 
never acquiesce to his illegal occupation of Crimea, and his 
aggression in Ukraine will not be tolerated.
    So that's why I'm glad we're doing the right thing by 
bolstering NATO in Eastern Europe to deter further Russian 
aggression. Any talk of sanctions relief for Russia is 
premature so long as Ukraine doesn't control its own eastern 
border.
    But, Mr. Secretary, we must do more to counter Russian 
propaganda. The chairman and I feel very strongly about the 
fact that people who speak Russian sometimes only hear on air 
what Putin wants them to hear. They get a very unbalanced view, 
and we need to make sure that they get a balanced view.
    Here in our neighborhood, let me applaud President Obama 
for what he has done over the last year. We should support the 
President's billion-dollar request for Central America.
    If we get to the root causes of child migration from El 
Salvador, Guatemala, and Honduras, fewer children will attempt 
the dangerous trip. Our top ally in the region, Colombia, is 
nearing a historic peace agreement with the Revolutionary Armed 
Forces of Colombia--the FARC.
    Just as we have supported Colombia throughout this 
conflict, we should continue standing with Colombia's people 
and government as they build a peaceful future.
    Turning to Argentina, the new government's desire to work 
more closely with the U.S. is a good sign. Chairman Royce and I 
have urged the President to prioritize this relationship, and 
I'm glad that the President is traveling there next month.
    Our policy in the Americas brings me finally to global 
health. The Zika virus may soon touch nearly every country in 
the hemisphere, and the connection between Zika and the birth 
defect microcephaly creates even greater urgency.
    We should prioritize awareness efforts, including the risk 
of sexual transmission, and meet the needs for contraception. 
Women need the right tools and information to choose whether 
and when to have children, particularly with this virus running 
wild.
    More generally, we continue to see the importance of 
investing in global health. The President's budget request is 
strong, but we should focus on the right priorities. For 
example, tuberculosis is the world's number-one infectious 
killer. So, I don't understand why the funding request from 
last year hasn't gone up.
    So Mr. Secretary, I could go on and on, but I look forward 
to hearing from you on these and other concerns. Again, thank 
you, and I yield back, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    So this morning we are pleased to be joined by Mr. John 
Kerry, the 68th Secretary of State. Prior to his appointment, 
the Secretary served as a United States Senator from 
Massachusetts for 28 years and chaired the Senate Foreign 
Relations Committee for the last 4 years.
    And so, Mr. Secretary, welcome again. Without objection, 
the witness' full prepared statement will be made part of the 
record. Members here will have 5 calendar days to submit any 
statements or questions or any other material for the record.
    We want as many members as possible to have a chance to 
question the Secretary, and to accomplish that I would just ask 
every member and the witness, let's try to stick to the time 
limit. That means leaving an adequate amount of time for the 
Secretary to answer your questions.
    So if we ask our questions succinctly and we get a succinct 
response, we can get through the members of the committee, and 
with that we will begin with a summary of, Mr. Secretary, your 
testimony.
    Thank you again.

 STATEMENT OF THE HONORABLE JOHN F. KERRY, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Kerry. Well, Mr. Chairman, thank you very much. 
Ranking Member Engel, all the members of the committee.
    I'm privileged to be here, to have a chance to present the 
2017 budget and to answer your questions and, obviously, I know 
most of them will be more with respect to policy, et cetera.
    But I will try to be very rapid in this opening. First, our 
request for resources this year of $50 billion is equal, as 
Ranking Member Engel reminded everybody, to about 1 percent of 
the entire Federal budget.
    One penny on the dollar is everything we do with respect to 
diplomatic security, development security, relationship 
security--all of the things we do with our Embassies, AID, 
everything.
    And I would suggest very respectfully to members of this 
committee it is a minimum price for the leadership that we 
offer to the world, that we are currently engaged.
    I think as the chairman said, I can't remember a time where 
there are as many hot spots, as many difficult challenges 
because of the transformation taking in the world right now--
taking place and as a result we are engaged in more places 
simultaneously than at any time that I can remember in my 
public life.
    The scope of that engagement is, frankly, essential to 
protect the interests of our country, to project our values and 
to provide for the security of the United States.
    We're confronted today by perils that are as old as 
nationalist aggression, state actions and as new as cyber 
warfare, and nonstate actors who are the principal protagonists 
in today's conflicts as well as dictators in too many places 
who run roughshod over global international norms and also by 
violent extremists who combine modern media techniques with 
medieval thinking in order to wage war on civilization itself.
    And despite the dangers, I come to you unabashedly ready to 
say that we Americans, I think, have many and profound reasons 
for confidence.
    In recent years, our economy has added more jobs than all 
of the rest of the industrial world combined. Our military, our 
armed forces, are second to none. My friends, it's not even 
close.
    Our alliances in Europe and Asia are vigilant and strong 
and growing stronger with the TPP and with the rebalance and 
our citizens are, frankly, unmatched with any country in the 
world in their generosity and their commitment to humanitarian 
causes to civil society and to freedom.
    We hear a lot of verbal hand wringing today but I, for one, 
will tell you that despite my deep respect and affection for my 
colleagues that I have worked with these last 3 years plus, I 
wouldn't switch places with one Foreign Minister in the world.
    And I certainly don't want to see the United States retreat 
to some illusionary golden age, given the conflicts and the 
challenges that we face in the world today and the need to 
project our values and protect our interests and build the 
security of our nation.
    So I, frankly, think that here and now we have enormous 
opportunities that we are seizing. In the past year, with great 
debate here, obviously, and many people who chose to oppose it, 
we reached an historic multilateral accord--multilateral 
accord, P5+1, and the world with Iran that has cut off that 
country's pathways to a nuclear weapon and it has made the 
world safer because they no longer have the fissile material or 
the capacity to build that bomb.
    In Paris in December we joined governments from more than 
190 nations. That's not insignificant that 190 nations agreed 
on specific steps--a comprehensive agreement to curb greenhouse 
gas emissions and limit the most harmful consequences of 
climate change that we are witnessing to a greater degree every 
single day.
    Witness the drought in California, the increased flooding, 
the increased numbers of fires, the intensity of storms, the 
fact that we spent about $8 billion in response to the 
intensity of those storms over the course of the last year 
alone compared to the minimal cost that we are asking you to 
provide for the Global Green Climate Fund.
    In addition, we signed the Trans-Pacific Partnership which 
will ensure a level playing field for American businesses and 
workers. It will reassert United States leadership in a region 
that is vital to our interests.
    In northern and eastern Europe we are quadrupling support 
for our security reassurance initiative, giving Russia a very 
clear choice between continued sanctions and meeting its 
obligations to a sovereign and democratic Ukraine.
    In our hemisphere, we are helping Colombia to end the 
globe's longest running civil conflict. Though there are still 
hurdles in that effort, we are working at it.
    We're aiding our partners in Central America to implement 
reforms that will reduce the pressure for illegal migration.
    In Asia, we're standing with our allies in opposition to 
the threats posed by a belligerent North Korea and we're 
helping Afghanistan and Pakistan to counter violent extremism 
and we are encouraging resolution of competing maritime claims 
in the South China Sea.
    With friends in fast-growing Africa, we have embarked on 
specific initiatives to combat hunger, to promote health, to 
empower women, to fight back against such terrorist groups as 
al-Shabaab and Boko Haram.
    And, of course, the administration recognizes that the 
threat posed by violent extremism extends far beyond any one 
region and will not be addressed simply by military means. So 
the approach we have adopted is a comprehensive and a long-term 
one. Diplomatically, we are striving to end conflicts that fuel 
extremism such as those in Libya and Yemen and we also work 
with partners to more broadly share intelligence, and as 
everybody here knows, we have forged a 66-nation coalition to 
counter Daesh and we will defeat Daesh.
    I have no question about that. We just moved with troops 
that we support on Ramadi. We are making enormous progress 
there.
    We have, together with the enormous efforts of the Iraqi 
military, now liberated 40 percent of the territory that was 
held by Daesh. We're moving on Hit. We will eventually move on 
Mosul.
    We have cut off the road of access to Araka and Mosul and 
there are many other things happening that we can discuss in 
the course of the morning.
    We're assisting the government in Baghdad as it seeks to 
professionalize its security forces and through the 
international Syria support group, which we formed and put 
together, we have helped design a plan that has resulted in the 
delivery of a possible cessation of hostilities to take place 
on Saturday.
    We have a team that will be working in Geneva and another 
team working in the next couple days directly with the co-
chairs--the Russians--in an effort to try to encourage that 
process to take hold.
    I will say that for the first time in years five or six 
communities have received some 114 trucks of humanitarian 
assistance and some 80,000 people now have supplies for a month 
that didn't have it a week ago before we were able to seal that 
agreement.
    And my hope is, though I know it's very difficult--no 
illusions about it--my hope is that we can work out a modality 
in the next few days that will see this actually take hold.
    We're calling on every eligible party to join in this 
effort and we can talk more, obviously, in the course of the 
morning about our vision for the political settlement itself.
    So I just close by saying, Mr. Chairman, as everybody knows 
this is the last budget of the Obama administration, the last 
one we will submit to this committee on behalf of American 
foreign policy and the national security of our country.
    There is nothing that I, as Secretary, or personally as a 
citizen take more seriously than protecting the security of our 
country.
    I ask for the fair consideration, for your counsel, your 
advice, your support and backing for this budget and our 
initiatives.
    But above all, I just want to say thank you to all of you 
for the extraordinary privilege of being able to work with you 
in support of an agenda that I believe not only reflects the 
best hopes and values of our country.
    But I am convinced when you analyse the challenges of the 
world today I believe this budget also reflects the best hopes 
of the world and that's what America's leadership is all about.
    So I thank you and I look forward to your questions.
    [The prepared statement of Secretary Kerry follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Thank you, Mr. Secretary.
    We're going to move as quickly as possible, keeping all 
members to 5 minutes so we can get to as many members here as 
we possibly can.
    Let me start with the observation that since just last 
month, Mr. Secretary, we've seen major foreign economic 
developments in terms of investment in Iran--$20 billion on the 
part of Airbus, $\1/2\ billion to modernize a car factory from 
Peugeot.
    We see French and Italian energy companies investing 
billions to revive the oil and gas infrastructure.
    These companies are government backed, many of them, and we 
have Chinese and we have Russian investment. In the face of 
this flood, isn't snap back really just an empty threat?
    Hasn't the dam broken?
    Secretary Kerry. Not at all, Congressman--Mr. Chairman. Not 
in the least.
    Every country that you've just mentioned--China, Russia, 
France, Britain, Germany--are all agreed and signed up to and 
have voted for a United Nations resolution that says snap back 
will take effect if Iran were to engage in egregious, 
unsolvable violation of the JCPOA.
    But in the meantime, Mr. Chairman, they are going to do 
what they are permitted to do under the agreement which is do 
business in terms of Iran and hopefully those links will 
ultimately result in transformation to some degree.
    Now, I would ask all of you to ask a question. Why isn't it 
Boeing? Why isn't it General Motors? I sat next to the chairman 
of General Motors the other day in Davos, Switzerland. They're 
sitting there watching Peugeot go in and others.
    We can't do that. Why? Because we still have a sanctions 
regime against Iran on our embargo because of our other issues.
    Chairman Royce. Because of ballistic missiles and because 
of their support for terrorism.
    Secretary Kerry. Because of other--that's correct, Mr. 
Chairman.
    But we can't sit here and complain about other people doing 
what they're allowed to do when we ourselves prevent ourselves 
from doing certain things.
    Chairman Royce. But the major economic actor from the 
standpoint of members of this committee or many of us is the 
IRGC--is the Iranian Revolutionary Guard Corps--and we see them 
on the march.
    We see them in violation of another U.N. sanction, not only 
working on their ICBM programs but also carrying out terrorist 
activity. So given the stock you're putting in the snap back 
provision are you asking Congress to renew the Iran Sanctions 
Act? Because that's going to expire. That's going to expire at 
the end of this year. This is the foundation of the sanctions 
regime. If it expires there is nothing to snap back.
    Secretary Kerry. That's not accurate, Mr. Chairman.
    We have all the snap back power that we need without the 
ISA. I'm not saying, you know, not to do it but I wouldn't 
advise that right now for a number of reasons.
    We just announced implementation day. Whatever we do with 
respect to the Iran Sanctions Act, my colleagues, friends, 
should be really done in the light of what we know is happening 
or not happening in the context of implementation and Iran's 
behavior going forward.
    Now, it's too early to measure all of that. Everybody here 
knows we can pass the Iran Sanctions Act if we needed to 
because of Iran's behavior in 10 minutes in each house--in the 
Senate and in the House.
    There is no rush here, number one. Number two, the 
President has all the power in the world through the Emergency 
Economic Powers Act to be able to implement. That's what we did 
to implement many of the sanctions we've put in place. The 
executive orders are empowered under that and the power of the 
presidency, not, you know----
    Chairman Royce. Let me close, though, with an observation.
    Secretary Kerry. They're not dependent--they're not 
dependent on the ISA. That is my point.
    Chairman Royce. I understand that point. But when you say 
there's no rush here let me point that in terms of the Iranian 
behavior there is very much a rush toward the mass production 
of an ICBM program and we're witnessing this.
    There is a rush on their part. There was a rush into Yemen 
with militia. There was a rush into Syria with Quds Forces and 
with proxies from Iran.
    It is that that we're seeing now. So if the administration 
isn't supportive of this renewal not only are we preventing the 
possibility of the snap back but from the standpoint of myself 
and many of the members of this committee we're also giving 
relief on missiles, basically.
    Secretary Kerry. No, we're not.
    Chairman Royce. We're giving relief on actions which we 
would consider terrorist activity, you know, especially the 
attacks by the Quds Forces.
    Secretary Kerry. Mr. Chairman, I respectfully beg to differ 
with you on that. We are not in fact giving them a freebie on 
anything, which is precisely why we left the missile sanctions 
in place.
    The arms sanctions are in place. The sanctions on terrorist 
support are in place. The sanctions on human rights are in 
place.
    They are separate from the JCPOA and they were purposefully 
separated in the context of these negotiations to protect our 
ability to be able to push Iran if they engage in those 
activities.
    Now, we just sanctioned Iran. On January 16th, we 
sanctioned three entities and eight individuals for their 
support for the missile activities and we have made it very 
clear to Iran that if it chooses to engage in those activities 
going forward there will be further activity.
    So we haven't, and secondly, Mr. President--Mr. Chairman, 
we haven't lost our ability to put the sanctions in place or 
snap back. As I said to you, they are not reliant. That power 
is not reliant on the Iran Sanctions Act.
    Chairman Royce. My time is expired so I'm going to go now 
to Mr. Eliot Engel, the ranking member of this committee.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Secretary, I'm going to throw out a few things and ask 
you to comment on them. First of all, to continue on Iran, what 
steps are we taking and will we take to combat Iran's support 
for terrorism and other maligned activities?
    What are we doing to make sure that Israel will be safe, as 
Iran rearms and continues to arm Hezbollah, which threatens 
Israel?
    With Ukraine, Russia is challenging our NATO allies across 
the continent. I'm encouraged by the President's commitment of 
significant additional resources to the defense of Europe.
    But, I still think we need to do more. NATO needs to 
permanently station a brigade in Poland, and the Baltic States 
and every ally need to get above the 2 percent requirement for 
their defense spending.
    So, I'm hoping that the administration will permanently 
commit more troops to the defense of Europe and press our 
allies to more adequately share the burden of their defense.
    I'd like to ask you what the administration thinks will 
happen next and what we're doing vis-a-vis North Korea. 
Finally, I want to talk about Pakistan because I'm concerned 
that it continues to play a double game, fighting terrorism 
that has a direct impact inside Pakistan, and supporting it in 
places like India and Afghanistan where Pakistan believes such 
a policy furthers its national interests.
    So what are we doing about that? How does our assistance 
support or hinder our hope that Pakistan begins to fight all 
terrorists?
    Secretary Kerry. Well, Mr. Ranking Member, let me try to 
address those as quickly as I can.
    On Iran, let me just inform everybody here that the IRGC 
has actually pulled its troops back from Syria. Ayatollah 
Khomeini pulled a significant number of troops out. Their 
presence is actually reduced in Syria, number one.
    Number two, that doesn't mean that they're still not 
engaged and active in the flow of weapons from Syria through 
Damascus to Lebanon. We're concerned about that and that is an 
ongoing concern.
    The other thing is that this money--I keep hearing this 
figure of $100 billion, $150 billion. Iran is not going to get 
a $100 billion or $150 billion, certainly not in the near term, 
and that figure is not accurate.
    It's more--our estimates are it's somewhere in the vicinity 
of $50 billion to $55 billion at some point in time but it's 
way below that right now, and in fact they are complaining 
about the slowness with which there has been a process of 
repatriation.
    So I urge you to go to the intel piece, get the intel 
briefing on what has happened with the IRGC and what is 
happening with the flow of money.
    Now, with respect to Iran's behavior in the region, we have 
been deeply engaged with our GCC friends and I've had three or 
four meetings now with them since last summer when they came to 
Camp David.
    Since then, I'm meeting with them again shortly. We've 
engaged in a major plus up of our military exercise, military 
cooperation, military support.
    We are joining with them in an active effort to push back 
against other activities. We're part of the coalition that has 
been supporting the Saudis and the Emiratis and others who 
pushed into Yemen to protect Saudi Arabia against the Houthis.
    And I believe we may even now as a result of those efforts 
find a ripeness in a political process that might be able to 
help resolve that.
    On Syria, Iran has come to the table together with Russia 
to agree to two communiques in Vienna and a United Nations 
Security Council resolution outlining a framework for the 
political resolution of Syria.
    Now, I am not here to vouch for the words. But I am here to 
say to you there is at least a framework on paper which we are 
now following with hopes of getting back to the discussion in 
Geneva in the next week with the support of Iran and Russia.
    Now, we're going to have to put that to the test. We're not 
sitting here saying it's going to happen automatically. But if 
there's going to be a political settlement the only way to get 
there is with the agreement and consent of all the parties.
    All the stakeholders are at the table for the first time. 
So we're hopeful that we can press that forward and at least 
come to you with a notion in a matter of months, weeks, they're 
either serious or they're not.
    If they are not serious, then we are going to have to be 
talking with you about whatever Plan B is going to be. But if 
there's a prayer of holding Syria together unified as a whole 
country without further refugee migration challenges to Europe 
and challenges to Jordan and Lebanon and the rest of the 
region, we must pursue some kind of a political process.
    With respect to Europe, we have engaged in a significant 
plus up, as I just mentioned. The budget goes from about $700 
million, $700 million plus, $750 million up to $3.4 billion in 
our support for the forward deployment of both troops rotating 
support structure and assistance to Europe.
    But I won't go into all the details now. Maybe I'll submit 
it for the record because of the time frame. But I just want to 
say to you that there is a very robust effort going on on the 
front line state support and our support for Ukraine, our 
pushing on Minsk.
    President Obama has had three or four conversations with 
President Putin the course of the last months from the United 
Nations meeting on.
    In every one of them, he spends probably 50 percent of the 
time at least on the issue of Ukraine and full implementation 
of Minsk and responsibility for protecting the integrity and 
sovereignty of Ukraine.
    So we're deeply engaged on those fronts and I think our 
support is welcome and very important.
    Chairman Royce. We're going to go now to Ileana Ros-
Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Welcome, 
Mr. Secretary.
    Secretary Kerry. Thank you.
    Ms. Ros-Lehtinen. I hope that we are both opposed to Abu 
Mazen's schemes at the U.N. to achieve unilateral statehood 
recognition outside of the peace process.
    I remain firmly opposed to your administration's offer 
continually to get a waiver to the law that prohibits U.S. 
funds from going to UNESCO, a law that has been effective at 
preventing the Palestinians from being admitted to other U.N. 
agencies. So I will continue to fight every effort by the 
administration to get a waiver to that law.
    In its last months of legacy shopping as it tries to check 
off the remaining goals of its misguided foreign policy, is 
your administration going to abstain from a vote on a French 
resolution at the U.N. supporting Palestinian statehood?
    So I will ask you to definitively answer here this morning, 
Mr. Secretary. Will the United States veto any resolution at 
the U.N. supporting Palestinian statehood? Yes or no.
    Secretary Kerry. I don't know of any resolution by the 
French specifically.
    Ms. Ros-Lehtinen. If there were?
    Secretary Kerry. Well, we have always opposed any one-sided 
resolution, something that is unfair to Israel or that----
    Ms. Ros-Lehtinen. Thank you. Thank you.
    And moving on to the administration's shameful concession 
policy toward Cuba that has turned its back on human rights 
advocates, yes or no, are human rights in Cuba a priority for 
this administration?
    Secretary Kerry. Of course they are.
    Ms. Ros-Lehtinen. Thank you.
    Then how do you explain this year's budget request for even 
less democracy funding for Cuba while repression is worse than 
ever before?
    And you're about to travel to Cuba for your second visit. 
Yesterday was the 20th anniversary, as you know, of the shoot 
down of the Brothers to the Rescue planes that were ordered by 
Raul Castro, resulting in the murder of innocent Americans.
    Will you commit, Mr. Secretary, to the families of these 
victims today that you will seek the extradition of Castro 
regime officials responsible for the shoot down--General Ruben 
Martinez Puente, Lorenzo Alberto Perez y Perez, and Francisco 
Perez y Perez?
    Secretary Kerry. Well, Madam Chair, let me just say that we 
are engaged actually more directly in human rights than we ever 
have been or capable of being because we now have negotiated 
additional diplomatic presence in Cuba.
    We now have negotiated the right for our diplomats to be 
able to travel----
    Ms. Ros-Lehtinen. Mr. Secretary, are you aware that over 
8,000 people were arrested----
    Secretary Kerry. Yes, I'm very well----
    Ms. Ros-Lehtinen [continuing]. Since the December 17th 
announcement of President Obama----
    Secretary Kerry. When you say arrested there were people 
who----
    Ms. Ros-Lehtinen. Arbitrary arrests, detaining human rights 
advocates----
    Secretary Kerry. Correct. There were many people detained--
--
    Ms. Ros-Lehtinen [continuing]. Whatever you would like to 
call people who are being held outside of their will.
    Secretary Kerry. People were indeed detained----
    Ms. Ros-Lehtinen. Eight thousand.
    Secretary Kerry [continuing]. And we are very much aware of 
that and we have objected to that and we are in conversations--
--
    Ms. Ros-Lehtinen. If I could just--thank you, Mr. 
Secretary.
    Secretary Kerry [continuing]. And we have succeeded in 
getting people released who previously had not been----
    Ms. Ros-Lehtinen. Yes, some that had been released were 
actually put on the list and rearrested so that they could be 
released again. And some who were released were--anyway----
    Secretary Kerry. Some----
    Ms. Ros-Lehtinen [continuing]. That's very interesting 
about that list of freed people that Castro plays. I hope we're 
not silly enough to believe that.
    And I'm wondering if you know on which illegally 
confiscated U.S. property you will be holding a press 
conference while you're in Havana. Last year, you held a press 
conference in the Hotel Nacional.
    The American owner, the Intercontinental Hotel Corporation, 
still has a U.S.-certified claim for its majority interest in 
the hotel.
    Do you know which illegally confiscated property you will 
stop at this time?
    And then, finally, will you commit to this committee that 
you will pressure Castro to unconditionally return to the 
United States New Jersey cop killer JoAnne Chesimard? Human 
rights, confiscated property, U.S. fugitives from justice? Does 
any of it matter to this administration?
    Secretary Kerry. It matters hugely. In fact, we believe we 
have actually created more opportunities for intervention, more 
opportunities to make progress.
    One in four people in Cuba are now beginning to work for 
private enterprise. They are able to move money----
    Ms. Ros-Lehtinen. How do you explain the massive exodus of 
80 percent increase of Cubans leaving the island since the----
    Secretary Kerry. Madam Chair, do you want the answer--do 
you want an answer or do you want to just ask a question? I can 
sit here if you want to do that.
    Ms. Ros-Lehtinen. But you're talking about small business 
owners that are just--I'd like to go to that optometrist----
    Secretary Kerry. I haven't finished my answer.
    Ms. Ros-Lehtinen [continuing]. Because those rose-colored 
glasses are amazing. There have been massive arrests, massive 
exodus and still we talk about this nonexistent entrepreneurial 
class in Cuba.
    Secretary Kerry. We now have more opportunity to engage. We 
have more visits taking place with various groups, NGOs and 
others who are going to Cuba and engaging with the Cuban people 
than ever before in the last 50 years of our policy. We 
believe----
    Ms. Ros-Lehtinen. They're leaving in record numbers.
    Secretary Kerry [continuing]. This has a greater chance of 
changing Cuba than anything that has happened in the last 50 
years. Didn't work for 50 years.
    Chairman Royce. We need to go to Mr.----
    Secretary Kerry. Nothing changed. Now it is changing.
    Chairman Royce. We need to go to Mr. Gregory Meeks of New 
York. Time has expired.
    Mr. Meeks. Thank you, Mr. Chairman.
    Mr. Secretary, first, I want to thank you for the great 
work that you've been doing and I just want to ask three quick 
questions in the spirit of what the chair has asked us to make 
sure that we're timely and give you an opportunity to answer 
those questions.
    First question, of course, deals with the situation in 
Turkey as it moves a tipping point. Specifically, I'm referring 
to tensions and conflict between Turkey and the Kurdish 
community.
    I think the details are important because we're working 
well with the Syrian Kurds--the YPK--in the fight against ISIL. 
Nevertheless, the rising tensions between the Kurds and Turkey 
have deepened and particularly since the tragic events in 
Ankara.
    And so my question basically there is how is Turkey's 
tension with the Kurds affecting the ongoing fight against 
Daesh and the end of the humanitarian tragedy there and what 
role if any can the United States play in helping with the 
Kurdish question.
    Secondly--different part of the world--as you also 
indicated in your opening statement, I am delighted that, you 
know, we were able to share the fifteenth anniversary of Plan 
Colombia with President Santos here and now we're talking about 
Peace Colombia, which I think is tremendously important, as we 
hopefully get to an end of that situation there.
    So but I'm concerned about how we make sure that Africans, 
Colombians and indigenous are included in the $450 million 
that's there.
    And finally, you also mentioned that we have concluded the 
negotiations in Asia on TPP and if we do not vote here in the 
United States to support the administration's negotiations, 
what setbacks if any will it have for us in the region, whether 
it's dealing with our allies and friends that are part of the 
agreement vis-a-vis China, and will they have a strategic 
advantage over us?
    Secretary Kerry. Thank you very much, Congressman. I 
appreciate the questions. Let me just move quickly through 
them.
    Turkey is our NATO ally. We work very closely with Turkey, 
obviously. Turkey has a border with Syria and Turkey has 
enormous interest in what is happening there.
    We are very sensitive to this challenge of their concern 
about the PKK, their concern about the links to the PKK, YPG 
and so forth, and we've been talking with them considerably 
about it.
    We need to respect Turkey's concerns and we will. We have, 
we believe. Going forward, it is very important that there not 
be a different problem created by the short-term solution of 
working with the Kurds and then that creates a longer-term 
challenge for all of us in the region.
    So we're working very, very carefully. On the other hand, 
we've also needed to have some people on the ground who are 
prepared to push back against Daesh.
    Kobani is an example of that. We were able to hold Kobani 
and drive Daesh out of Kobani as a result of Kurd support and 
the Peshmerga particularly with respect to the northwest 
component of Iraq have been particularly helpful and engaged.
    They were essential to a number of successful military 
initiatives to push Daesh back, and in fact there are different 
Kurds because some are more prepared and more comfortable 
working with Turkey than others are and those divisions are 
very complicated and need to be managed carefully.
    Bottom line to your question is we are talking with the 
Turks right now about how to proceed in ways that do not cross 
important lines for them and that respect the sensitivities of 
the region and I'm confident we will be able to do that.
    With respect to Peace Colombia, we have committed, as you 
know, and it's in the budget, a very important de-mining 
initiative which could take place in the aftermath of an 
agreement.
    There are still some difficult issues to resolve in the 
context of the agreement and we're encouraging that process. 
President Obama has appointed Bernie Aronson as a special envoy 
to those talks.
    He has the respect and confidence of President Santos and 
the other participants. I may well be meeting with some of them 
shortly in the next days, depending on how events flow.
    There are many countries that are supportive of this effort 
and our hope is that we can resolve the transitional justice 
issues and the victims issues, which are two of the most 
critical ones outstanding at the moment.
    On the TPP, folks, I just--you know, I know--I mean, I've 
been part of trade debate on the Hill for the 28-plus years. I 
served in the Senate and I know how difficult it is.
    I was there when NAFTA passed and we went through some 
enormous transitions. This agreement is different from any 
trade agreement that I saw at any of the time that I was here 
because labor requirements, environment requirements are boldly 
within the four corners of the agreement and because this is 
essential, frankly, to raising the business standards of the 
region.
    It eliminates 18,000 taxes on American goods that can be 
exported into the region. It's a benefit to American workers.
    It will create jobs here in America and it will profoundly 
impact the standards going forward for the protection of 
intellectual property, for the protection under cyber, and for 
our ability to be able to raise the transparency and 
accountability by which people do business.
    If this doesn't pass then we are rejecting the most 
important economic initiative and unifying moment of, I think, 
the last, you know, 20, 30 years and we would be turning our 
back on American leadership in that endeavor and then leave to 
people who want to race to the bottom the standards for doing 
business, the absence of transparency, the absence of efforts 
to counter corruption, to deal with reform.
    Important reforms are contained in this TPP and I simply 
urge you look at it, analyze it and I believe in the end you 
will agree this is not like any prior trade agreement and I 
believe takes us to a much better place and reinforces American 
leadership in the region.
    Chairman Royce. Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you. Thank you, Mr. Chairman, and thank 
you, Mr. Secretary, for your service.
    A couple of questions. When I learned late last year that 
the administration was contemplating designating massive crimes 
against the Yazidis as genocide, which it is, but not 
Christians, I convened an emergency hearing on December 9th.
    Mirza Ismail, chairman of the Yazidi Human Rights 
Organization-International, testified that the Yazidis were on 
the verge of annihilation but also said the Yazidis and 
Christians--this is his quote--``face this genocide together.''
    Chaldean Bishop Kalabat testified, and I quote him,

        ``Christians have encountered genocide and the Obama 
        administration refuses to recognize their plight.''

    Dr. Gregory Stanton of Genocide Watch testified,

        ``Failure to call ISIS' mass murder of Christians, 
        Muslims, and other groups in addition to the Yazidis by 
        its proper name, genocide, would be an act of denial as 
        grave as U.S. refusal to recognize the Rwandan genocide 
        in 1994.''

    My first question is when and will Christians and other 
minority faiths be included in a genocide designation? And 
secondly, because I know I only have 5 minutes, last year a 
Reuters investigative report--it was a very incisive report and 
without objection I would ask it be made part of the record--
found that Tier 3 recommendations made by the Trafficking in 
Persons Office experts in 14 instances including Malaysia, 
China, Cuba, India, and Oman were rejected further up the chain 
of command at State and artificially given a clean bill of 
health for other political purposes.
    I convened a hearing. Kari Johnstone testified in November. 
I asked a lot of pointed questions about who made these 
decisions, were there other political factors involved. She was 
very tight lipped--very good person but did not convey 
information.
    Can you assure us, because the new TIP Report will be 
coming out very shortly, that that won't happen again this 
year?
    You have the credibility of the TIP Report in speaking 
truth to power and defending victims against these heinous 
crimes of sex and labor trafficking, as you know, because you 
were a very strong supporter of it as a Senator and, of course, 
as Secretary of State.
    We have to get the book right. What you do with that is all 
up to the administration in terms of penalties and sanctions. 
But the book has to speak truth to power by getting it right.
    Fourteen instances. Can you respond?
    Secretary Kerry. Yes, I can, and I will respond.
    I am responsible for that report. I accept responsibility 
for that report. I made the decision about Malaysia and I made 
it strictly on the merits and in fact Malaysia has made 
improvements.
    It has increased prosecutions. It has increased its 
investigations. It has passed amendments on anti-trafficking. 
It has passed amendments on providing better law enforcement 
protection.
    It has issued regulations in consultation with NGOs and it 
has increased law enforcement efforts to prosecute and convict 
and it had additional convictions.
    Now, you know, you have to make a judgement in some of 
these cases. But I will absolutely vouch for the integrity of 
this process.
    We have a very detailed year-long effort where people are 
measuring and I have instructed our Embassies to be engaged 
year long in working with countries to try to give them time to 
make changes, to respond to our needs.
    Sometimes you are better off working with, encouraging and 
getting people to do something than just slamming them in a 
report and finding that they say well, to hell with them and 
they walk away and they don't respond.
    We found, in the case of Malaysia and some other countries, 
we've actually been able to make progress. But I can assure you 
this report will demote somebody who deserves to be demoted and 
we will call it as we see it.
    And I don't think anybody--you know, but I'm responsible--
--
    Mr. Smith. With respect, Cuba, China, Oman--we were told 
that Oman, because they helped on the negotiations with Iran, 
Cuba because of the rapprochement that's occurred, and China--
when it comes to sex trafficking because of the missing girls, 
tens of millions of missing girls, has become the ultimate 
magnet for pimps who are turning women into commodities and 
selling them across borders into China.
    It is, I believe, the worst violator in the entire world in 
terms of the massive numbers. So I would hope China would be 
looked at. And, again, on the Christian genocide designation, 
if you could just speak to that.
    Secretary Kerry. I'll come back to that. I do want to speak 
to that very much.
    But let me just say to you, you know, each of these are 
real judgments that we make--that I make, ultimately. On Cuba, 
Cuba was upgraded to a Tier 2 watch list from Tier 3 because it 
did make significant efforts to address and prosecute sex 
trafficking including the conviction of 13 sex traffickers and 
it provided more services to sex trafficking victims.
    The government provided training to Cuban officials to 
address sex trafficking. The Ministry of Tourism actually 
reached out to address sex tourism and reduced the demand for 
commercial sex and they have committed to reform their laws in 
accordance with the U.N. Palermo protocol.
    Now, if that doesn't happen then there's a measurement to 
try to go backwards. But we felt that in each of these cases 
there was progress.
    Now, I would put on the record here today we are concerned 
that the Government of Cuba has not recognized forced labor as 
a problem, criminalized forced labor or reported efforts to 
prevent it.
    And so there are things that we need to do going forward 
and that's what we'll measure. On the Christian issue, I share 
your concern very, very much. Again, this is a judgment that I 
have to make.
    I will make it, and any reports that we have made a 
decision to the contrary, that the decision has been made not 
to, are incorrect. That doesn't mean we made a decision to do 
so.
    This has to be done of the basis of a legal standard with 
respect to genocide and the legal standard with respect to 
crimes against humanity.
    I have asked our legal department to evaluate--to 
reevaluate, actually, several observations that were 
circulating as part of the vetting process of this issue and 
I'm concerned about it and I will make a judgment.
    I will also try to do so very, very soon. We know this is 
hanging out there.
    Chairman Royce. We need to go to Mr. Albio Sires of New 
Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for all your hard work. I want to 
go back to the topic of Cuba. I know that we have had this 
issue of 50 years.
    But there seems to be more repression in the last 10 
years--this year, this past year than in the last 10 years.
    And I was wondering with all the people going back and 
forth to Cuba are any efforts being made to bring JoAnne 
Chesimard back to the United States?
    Secretary Kerry. We are discussing all of the outstanding--
I might add, in conjunction with the chairwoman's question 
also, we are entering into the period now we're going to begin 
to be discussing the confiscated property and that's a very 
critical component of this as well as extradition or release of 
various people and all of those human rights issues are on the 
table.
    I pursue them and the President will pursue them when he's 
there.
    Mr. Sires. JoAnne Chesimard?
    Secretary Kerry. Yes. I said we will be working on all of 
these issues. I can't go into the specifics of each of them 
now.
    Mr. Sires. And there seems to be more repression now than 
in the last 10 years after we made all these contacts with 
Cuba. Are we addressing that?
    Secretary Kerry. Well, yes, we are addressing the arrests. 
We were particularly incensed by the arrest of several of the 
people who had been part of the release effort originally and 
here's what the Cubans say.
    The Cubans say well, they went out and broke the law again 
and we looked at what they had allegedly broken and we object 
entirely.
    One of them had hung a sign in a window saying that I 
will--you know, I will only vote in an election in which I can 
vote to choose my President and so forth--and 4 year sentence.
    That's ridiculous. It's obscene, and we believe it's 
obscene and we told them that is wrong. So we continue to press 
those issues. But we do have more ability to be able to 
interact with the Cuban people.
    When I was there to raise the flag, to have the Marines 
raise the flag--the Marines who lowered the flag were there to 
raise the flag--there were Cubans massed behind the----
    Mr. Sires. There were no dissidents, though. Dissidents 
weren't invited.
    Secretary Kerry. No, no, no. These were people who cheered 
mightily at the return of the United States and the presence of 
our country, and my speech in which I talked about democracy 
and talked about the need to have protection of human rights 
was broadcast for the entire country and some of it--a little 
bit of it in Spanish, and the President's----
    Mr. Sires. Well, our diplomats----
    Secretary Kerry. We have more ability--we have more ability 
because of this to interact with the Cuban people and more 
Americans are traveling there and interacting----
    Mr. Sires. Even our diplomats are restricted from moving 
around throughout the island.
    Secretary Kerry. Our diplomats--we negotiated an ability 
for our diplomats, a specific number, as we test the, you know, 
expansion of this relationship.
    More diplomats are able to proceed to travel around 
unannounced and without people following them or engaged in any 
activities. We have diplomats who are able to travel around the 
country.
    Mr. Sires. Are they actually traveling?
    Secretary Kerry. I believe they are. I've heard nothing to 
the contrary.
    Mr. Sires. The other thing I want to talk about is 
Colombia. If they do come to an understanding I hope that we do 
not walk away from helping Colombia.
    Secretary Kerry. We are deeply committed. President Obama--
that was part of the reason for the celebration of the 15-year 
mark. We invested--we, you, everybody here--well, not everybody 
but those of you in the upper dais certainly invested 
significantly in the late 1990s in Plan Colombia and it's made 
all the difference.
    That is why we now talk about Plan Paz, Plan Peace, because 
we want to continue that investment.
    Mr. Sires. If we do reach peace--I hope that we still 
continue to assist Colombia.
    Secretary Kerry. So do I. So do I.
    Mr. Sires. And the other thing--this morning in the news I 
saw that Russia gave Afghanistan all these arms. What do we 
make of that, I mean, now that there's an incursion by the 
Russians into Afghanistan?
    Secretary Kerry. The Russians are deeply concerned about 
the stability of the country. They have raised the issue with 
us of trying to protect the region. They have concerns about 
the countries near them.
    They have concerns about the flow of terrorists. That is 
also one of their concerns about Syria. And so they are 
engaged--in fact, we are discussing with the Russians these 
issues of security for the ongoing challenges of Afghanistan.
    Mr. Sires. So were you aware that they were going to give 
these arms to Afghanistan?
    Secretary Kerry. We know that they're supporting the 
Afghan----
    Mr. Sires. This morning--it was in the news this morning.
    Secretary Kerry. You're talking about the Afghan Government 
or the----
    Mr. Sires. Yes, they gave 10,000 rifles or whatever, you 
know, arms to----
    Secretary Kerry. Yes. Yes, we support that.
    Mr. Sires. Okay. Thank you, Mr. Secretary.
    Secretary Kerry. Thank you.
    Chairman Royce. We now go to Mr. Dana Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you, Mr. Secretary, and again, thank 
you for your service to our country. You work very hard for us 
and while we have some policy disagreements you have our 
respect and our gratitude.
    So, first of all, let me mention then some of these issues 
that we may have disagreements on. When you say that the 
decision will be made very, very soon to act on the idea of 
whether Christians and Yazidis are targets of genocide, let me 
just note this had been going on--we have been seeing this now 
for well over a year--roughly, several years now of the 
slaughter of Christians in the Middle East.
    And for us to not have made a decision and that we're 
making the decision but that decision hasn't been made yet is 
unacceptable.
    We're talking about the lives of tens of thousands of 
people who are being brutally slaughtered, targeted for 
genocide.
    I have a bill, H.R. 4017, and the President has commented 
that it would just be giving preference to Christians.
    Is it preference to give--I mean, is it wrong to give 
preference to people who are targets of genocide and say we're 
going to save them, realizing that they are the ones who are 
most likely to be slaughtered?
    Secretary Kerry. Well, this decision has to be made 
strictly on--and has to be made quickly and I understand that.
    But I only--I think I only had the first discussion come to 
my desk on this in terms of the legal interpretations a couple 
of weeks ago and that's when I--that's when I immediately 
initiated some reevaluation which I'm looking at and I can tell 
you I want to do this as quickly as I can.
    Mr. Rohrabacher. Well, let me just suggest, having this 
come to your attention only weeks ago----
    Secretary Kerry. Well, it has to go through--it requires--
Congressman, it does require a lot of fact gathering. I mean, 
you have to get the facts from the ground more than just 
anecdotal----
    Mr. Rohrabacher. Mr. Secretary, the whole world knows that 
Christians are being slaughtered in the Middle East. It's 
clear.
    It's time for America to act and the excuse that we've got 
to study it, we got to ask the lawyers what the wording is, is 
this really preference or not, is unacceptable, and I would 
hope that your word that it's going to be acted on very soon 
we're going to hold you to that.
    So second, about the idea here, do you agree with some of 
the administration officials that claim that Russia is a 
greater threat to our national security than is radical Islamic 
terrorism?
    Secretary Kerry. I think--you know, I don't want to get 
into a sort of either/or here because I don't think it's 
necessary. I think that what the Defense Department and others 
have been saying is that they see activities that Russia has 
engaged in which present challenges.
    For instance, what happened with Crimea, what happens in 
the Donbass, what's happened in support for the separatists, 
the long process of back and forth on Minsk implementation is 
interpreted by the front line states as a threat and there's 
engagement by Russia through its propaganda, through operatives 
in some of these other countries. So it is perceived of as 
engaging----
    Mr. Rohrabacher. Mr. Secretary----
    Secretary Kerry. Let me just finish. Let me just finish.
    Mr. Rohrabacher. Okay, sir.
    Secretary Kerry. I believe if you wanted me to put on the 
table the top threat to the United States today in terms of day 
to day life and the stability of the world, it is violent 
extremism, radical religious extremism and the violence of----
    Mr. Rohrabacher. Are you unable to say radical Islamic 
terrorism, as our President is unable to say?
    Secretary Kerry. I think you just heard me say radical 
religious extremism.
    Mr. Rohrabacher. No. You didn't say radical----
    Secretary Kerry. It's not always extreme----
    Mr. Rohrabacher. You don't want to say radical Islamic 
extremism.
    Secretary Kerry. It's predominantly Islamic.
    Mr. Rohrabacher. It is disheartening when a member of--when 
a representative of our Government can't say radical Islamic 
terrorism and at the same time can't make a decision whether 
Christians are being targeted for genocide. This is not 
acceptable.
    About your point on Russia and whether or not we consider 
them the greatest threat over radical Islamic terrorism, let me 
just note that increasing the spending of our military spending 
in Europe so that we'll now have more tanks in Europe could be 
taken as a hostile act by Russia as well.
    It's time for us to get out of this cycle of well, we're 
going to find things that they can--that they're doing that we 
consider hostile and vice versa.
    Russia has--we have every reason, do we not, Mr. Secretary, 
of trying to find a way we can work with Russia to combat what 
is the real threat, which is radical Islamic terrorism.
    Secretary Kerry. Congressman, I think you heard me say that 
it is predominantly Islamic and I have no hesitation in saying 
that and I've said that in many parts of the world.
    That's not the issue and yes, we are trying to cooperate 
with Russia with respect to this issue in Syria right now. 
Russia is the co-chair with us of the international Syria 
support group and of the cessation of hostilities task force.
    And we are working very closely on the countering violent 
extremism initiatives, which President Obama has led in the 
U.N. and elsewhere in convening people to work against violent 
extremism on a global basis.
    To me, this is the greatest challenge we face because there 
are hundreds of millions of young people in many of these 
countries where you have 60 to 70 percent of the nation under 
the age of 35 and if they don't have jobs and if they are not 
educated and there is not opportunity or we don't keep radical 
religious extremists of any kind from reaching them and turning 
them in to a suicide bomber or an extreme operative of one 
kind, we have a problem--all of us.
    So this is, to me, the more prevalent challenge that we all 
face and Russia shares an interest in working with us to deal 
with that challenge.
    Chairman Royce. We go now to Mr. Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman and Mr. Secretary.
    Obviously, my colleague wants to get you to say that the 
number-one threat is Islamic terrorism.
    But is it not also true not to dilute anything that the 
biggest victims of that terrorism are in fact Islamists 
themselves and that many of our allies fighting this terrorist 
war are Islamic countries? Is that not true?
    Secretary Kerry. They are indeed our very significant 
allies in this effort and I would say every single country of 
the world they are joining in an effort to deal with the 
terrible distortion of one of the world's principal religions.
    Mr. Connolly. I think that's a very important point, Mr. 
Secretary, to put it in context because it's not that my friend 
would do that. I don't mean that.
    But we have heard some Presidential candidates taint an 
entire faith with something I think grossly unfairly when in 
fact victims are Muslims and many of the countries allied with 
us in the fight against terrorists are in fact Muslim 
countries.
    So it's a very complex situation. But not subject to some 
simplification or oversimplification of who are the villains 
and who are the good guys. So I just thought we'd get that on 
the record.
    I think this is your first visit back since JCPOA, the Iran 
nuclear agreement got implemented and I just want to say for 
one I think it's one of the most successful things U.S. foreign 
diplomacy has done in a long time, and despite the critics and 
all the predictions we had a hearing the other week and 
established definitively the fact Iran has complied.
    And if you're looking at removing an existential threat to 
Israel we did it. And I just want to congratulate you and if 
you want to disagree that--about compliance please feel free. 
But it's my observation that in every metric we set so far we 
have not seen cheating.
    We have not seen subterfuge. We have been able to observe 
and validate and in fact Iran has complied. That doesn't make 
Iran a good guy in the international stage but it does mean we 
in fact were able to deliver an enforceable agreement and 
improves everybody's security.
    I don't know if you want to comment on that, Mr. Secretary.
    Secretary Kerry. I thank you. I thank you, Congressman, 
very, very much and that is in fact what we concur with, that 
they have complied.
    Mr. Connolly. Thank you. Real quickly, I want to pivot to 
Crimea and the Ukraine.
    One of the concerns I've got, and I know it's shared by 
friends on both sides of the aisle, is with respect to Soviet 
expansionism, Soviet imperialism, hegemony, whatever word we 
want to use for it, it all starts with Crimea.
    If you let Crimea go now you're quibbling over the price in 
eastern Ukraine or Abkhazia or wherever and what is the United 
States' position with respect to the illegal annexation of 
Crimea?
    Secretary Kerry. That it is illegal and we're not ceding 
Crimea with respect to anything. But the primary focus for the 
moment is clearly on the Donbass and the Minsk agreements 
implementation.
    Mr. Connolly. But we're not going to give up on the Crimea?
    Secretary Kerry. No, we have no intention of that.
    Mr. Connolly. And the President--if I'm correct, I know 
some of my friends have criticized him for the issuance of 
executive orders but presumably not these.
    He's issued executive orders 13660, 661, 662, and 685 
blocking property, persons, and transactions related to the 
illegal annexation of Crimea and subversion in the Eastern 
Ukraine.
    How is compliance going with those executive orders and is 
the administration seeking additional legislative relief with 
respect to the subject?
    Secretary Kerry. We believe that Russia continues to pay a 
real price for the annexation of Crimea and Crimea is 
physically isolated from international transport links now, 
from the global financial system.
    Its tourism sector has collapsed. It remains unable to 
provide full significant electricity to its population and 
inflation has completely erased any potential of the Russian 
promises of a better standard of living for the people.
    Now, it's obviously tragic for the people of Crimea. We 
know that since the annexation the human rights situation for 
the people of Crimea has deteriorated and there has been a 
mounting repression of minorities, particularly the Tartars.
    So we continue to press Russia on this issue and I believe 
that the measures that are in place are having an impact.
    Chairman Royce. Mr. Steve Chabot of Ohio.
    Mr. Connolly. Let me thank you, Mr. Secretary, and thank 
you for your long service to our country.
    Secretary Kerry. Thank you very much.
    Mr. Chabot. Thank you, Mr. Chairman. Good morning, Mr. 
Secretary.
    This is the 20th year that I've had the honor to serve on 
the Foreign Affairs Committee. I've chaired the Middle East 
Subcommittee.
    I've chaired the Asia Pacific Subcommittee and I've had the 
opportunity to listen to and to question a number of foreign--
or excuse me, a number of our Secretaries of State from Warren 
Christopher to Madeleine Albright to Colin Powell to Condoleeza 
Rice to Hillary Clinton, to yourself in the past and again here 
today.
    Now, this administration has less than a year to go. So 
what I'd like to do is to ask you to address some of the things 
which many would argue haven't gone so well and what we can 
learn from these things and hopefully avoid repeating in the 
future and as you know I've got limited time and I have several 
questions.
    So I'd ask that you keep your answers reasonably succinct 
because I would try to avoid to interrupt you.
    First, you've already been asked about the Iran deal. But 
I'd like to go back before the deal and ask this, and I 
realize, of course, that Hillary Clinton was Secretary of State 
and not yourself. So I'm not blaming you.
    But I would ask this question. Was not aiding the students 
and the pro-democracy reformers in the Iranian green movement a 
mistake?
    Secretary Kerry. Well, I think my memory is that President 
Obama spoke out in support of--and we suffered a lot of 
criticism from Iran. In fact, this is one of the hurdles we had 
to get over in our negotiation. They believed that we were not 
only supportive but even responsible for it.
    Mr. Chabot. That's not my recollection. You know, these 
young pro-democracy folks pleaded for our help--pleaded for it 
and they got exactly nothing from this administration.
    President Obama essentially, if you go back and look at 
what he said at the time, he took the side, I would argue, of 
the repressive mullahs of Iran over its freedom-seeking people.
    I think most people who were looking at it at the time 
would say it was shameful what happened. Let me move on.
    In retrospect, was it a mistake to pull all U.S. troops out 
of Iraq?
    Secretary Kerry. I believe that this has been badly 
misinterpreted because there was no contemplation--first of 
all, the agreement itself was made by President Bush to draw 
the troops out.
    What President Obama tried to do was negotiate with Prime 
Minister Maliki the remainder that would stay and they were 
noncombat troops. Everybody needs to focus on that.
    There were no combat troops that were going to stay there. 
So even if they had stayed that would not have made a 
difference with respect to what was happening because Prime 
Minister Maliki was turning the army into his own personal 
private sectarian enterprise and that is the principal reason--
--
    Mr. Chabot. Again, I have to interrupt you but I----
    Secretary Kerry. Let me just finish. That's the principal--
--
    Mr. Chabot. I think--I think next to the Iran deal I would 
argue that it was this administration's greatest mistake and it 
led, I think, directly to the rise of ISIS.
    Let me ask this. How did this administration so misread 
Putin? Now, to be fair, President Bush did too. He famously 
looked into Putin's eyes, believing that he'd got a sense of 
his soul.
    But let's face it, Putin's been undermining U.S. policy at 
every turn. Why did this administration not see that coming? 
Why did it let it happen?
    Secretary Kerry. Well, I don't think that anybody could 
predict what an unpredictable set of choices might produce. The 
bottom line is that at the time a number of other things 
happened which had an impact on Putin's perception of what was 
going on.
    Mr. Chabot. Let me just--I'm almost out of time. Just let 
me comment on your comment. It seems to me that from the start 
of this administration, from Hillary's famous pressing of the 
reset button, that we've been played like chumps by Putin.
    This administration scrapped the missile defense program 
with our allies, Poland and the Czech Republic, to placate 
Putin. And what did we get?
    You know, he invaded and annexed Crimea, started a war in 
Eastern Ukraine, which is ongoing, shoots down a civilian 
airliner and, of course, denies it--his allies did that--
threatens the NATO alliance, props up Assad in Syria, harbors 
the treasonous Edward Snowden, and on and on.
    I'd argue that this administration's policy with respect to 
Russia has been feckless and, unfortunately, I'm out of time. 
So I'm going to have to leave it there.
    Secretary Kerry. Can I just respond very quickly, 
Congressman?
    There was an agreement which Yanukovych was supposed to 
honor and we don't believe he honored it. But Putin, from his 
perspective, had an attitude that there was a deal and the deal 
was broken, and he thought and perceived certain things.
    People respond in certain ways and perceptions. I don't 
believe that--and also the European Association agreement and 
the way that had been maneuvered had a lot to do with 
perceptions.
    Now, we are building the missile defense. The 
administration came to a conclusion they could do a more 
effective one and that is currently being deployed.
    Russia still objects to what is happening but it's 
happening. So nobody pulled back from doing something as a 
consequence. Nobody's been played for a chump.
    We went in and put sanctions in place that have profoundly 
negatively impacted Russia's economy, profoundly impacted 
Russia's ability to move and maneuver in the region and 
ultimately resulted in the Minsk agreement, which we hope can 
be implemented fully.
    If it is implemented fully, our policy will have in fact 
been successful because Russia will not have taken over all of 
Ukraine, not even the eastern part where the separatists will 
then still be part of Ukraine and in an arrangement with the 
government in Kiev.
    So I just don't agree with your conclusion there and I also 
think that if you look, Russia's cooperated with the United 
States on the Iran agreement.
    Russia cooperated with the United States in getting the 
chemical weapons that were declared out of Syria. Russia has 
cooperated with the United States and the Syrian International 
Support Group and the Vienna process and now in an effort to 
try to fight against Daesh and----
    Chairman Royce. We need to go to Mr. Ted Deutch of Florida.
    Secretary Kerry. It's not--it's just not--you know, the 
point I'm trying to make is it doesn't lend itself to just one 
judgment. This is more complicated and for better or worse more 
nuanced than some of these conclusions allow for.
    Chairman Royce. Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for being here. Thanks for your 
service to our country.
    Mr. Secretary, I had the pleasure this morning of spending 
some time with Amir Hekmati and as you know Bob Levinson is my 
constituent and it's wonderful to see Amir and I'm thrilled for 
the Rezaian and the Abedini families but I just want to urge 
you to continue to press with the utmost, the greatest sense of 
commitment and urgency to bring Bob home to his family.
    I'm grateful for your raising this issue. I just urge you 
in the strongest way to really continue to push.
    I'd like to talk about the Iran agreement. Without making 
judgements about whether it's the greatest achievement ever or 
the worst thing that's ever been done, I think it's--this is a 
15-year term, 5 months since it was signed. We just had the 
implementation day.
    A lot of us, whatever side we were on before, want to see 
this succeed. So I want to focus just specifically on the snap 
back provisions, which had come up earlier--both the 
international snap back of international sanctions and the snap 
back of domestic sanctions.
    On the international, the tests of the ballistic missiles 
by Iran clearly violate the Security Council resolution. 
Ambassador Power, to her credit, took this to the Security 
Council and the Security Council has kicked it to the sanctions 
committee, as I understand it, and the question is if what is 
in this case a clear violation can't be sanctioned at the 
international level--I commend you and the administration for 
taking action as the United States against these three entities 
and individuals.
    But at the international level if the Security Council 
cannot--when there's a clear violation like this over the term 
of this agreement why shouldn't we have concerns or how do we 
address the concerns that they'll never be able to act when 
there's a violation. That's with respect to international.
    On the domestic front, you talked about the Iran Sanctions 
Act and the reauthorization of the Iran Sanctions Act. I just 
wanted to go back to a story that was in Politico last summer, 
in August in the midst of the heated discussions about the 
JCPOA.
    A senior official told Politico, and I quote,

          ``We absolutely support renewal of the Iran Sanctions 
        Act. It's an important piece of legislation.
          ``We want to discuss renewal with Congress in a 
        thoughtful way at the right time. Now is not the time 
        as the ISA doesn't expire until next year and because 
        we are focused on implementation.
          ``We will have plenty of opportunity in the coming 
        months to take part in the deliberate and focused 
        communications with Congress on this important topic.''

    The deal has now been signed. Implementation Day has now 
come and passed--come and gone. It is 2016, the year in which 
this is going to expire.
    Mr. Secretary, if not now, when? When will we have these 
discussions that the administration was committed to having 
last summer?
    Secretary Kerry. Well, Congressman, first of all, on Bob 
Levinson, I understand completely.
    I just met with the family recently and I completely 
understand the tension, the feelings, and the disappointment 
that they feel. They see people come back and Bob is not among 
them and they don't have answers yet.
    But we have put a process in place as part of the actual 
agreement that we reached whereby he is very much front and 
center in terms of our following through to trace every lead 
there is and to be personally engaged.
    I won't get into greater detail but I shared with the 
family some of the things that we plan to do and we will--in 
fact, we are doing them.
    Mr. Deutch. Thank you.
    Secretary Kerry. With respect to the UNSCR, you asked about 
the missiles--does it have the meaning somehow that we're not 
going to do what we said we're going to do and the answer to 
that is no.
    The missiles were left outside of JCPOA. JCPOA stands by 
itself. The missiles are a separate track. The arms are a 
separate track and we purposefully did not want to confuse the 
implementation and accountability for the implementation with 
these other things.
    So that's why we put additional sanctions on because of the 
missile launch on three entities and eight individuals. Now, 
you raised the question about 2016--it not now, when. Well, now 
is a good time to have the discussion.
    This is part of the discussion. We're having it here today. 
And I'm saying to you that we should be informed in whatever we 
choose to do on the ISA by how well the implementation goes, by 
how necessary it is to be thinking about their concern about 
the application of the sanctions.
    We don't need--we don't need the ISA to be able to have 
snap back.
    Mr. Deutch. I'm sorry, I'm out of time.
    But I just wanted to ask is one of the reasons that there 
is a hesitation to go forward now even after Implementation Day 
is that Iran is going to view this as--interpret this as some 
sort of violation of the agreement which, clearly, it's not?
    Secretary Kerry. No. I think--I think it's on its face 
exactly what I just described to you. There's no rush. We know 
we can pass whatever we would need to very quickly, number one.
    Number two, we want to be--in whatever we decide to do, 
whatever message it might send, ought to be advised by the 
efficiency and effectiveness of the way this has been 
implemented so that whatever we're putting in it is in fact 
rational and related to the process itself.
    As you yourself just said, we're only a few months into it. 
Let's get into it--there's plenty of time here--and see where 
we are.
    Chairman Royce. We go now to Mr. Joe Wilson of South 
Carolina.
    Mr. Wilson. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here.
    I'm very grateful that Speaker Paul Davis Ryan has provided 
shocking admissions of how Iran will use sanctions relief to 
fund terrorism, which I believe the American people need to 
know puts families at risk.
    On January 21st, Mr. Secretary, you admitted,

        ``I think that some of the funds from the sanctions 
        relief will end up in the hands of the IRGC or other 
        entities, some of which are labeled terrorists.''

    This is sad, Mr. Secretary. Iran is widely recognized as 
the world's leading state sponsor of terrorism, supporting 
groups like Hamas and Hezbollah.
    They are responsible for murdering hundreds of Americans. 
It therefore should come as no surprise that at least some of 
the $100 billion in sanctions relief granted under the nuclear 
agreement will be used to finance terrorists. You are not alone 
in this assertion. In fact, several key Obama administration 
officials including the President himself have made the exact 
same admission:

        ``Do we think that some of the sanctions coming down 
        that Iran will have some additional resources for its 
        military for some of the activities in the region that 
        are a threat to us and a threat to our allies? I think 
        that is a likelihood that they've got some additional 
        resources.''
                --President Barack Obama.

    Also,

        ``We should expect that some of the portion of money 
        would go to Iranian military that could potentially be 
        used for the kinds of bad behavior we've seen in the 
        region up to now.''
                --From National Security Advisor Susan Rice.

    Also,

        ``As Iran's behavior the United States is under no 
        illusions. This agreement was never based on the 
        expectations that it would transform the Iranian regime 
        or cause Tehran to cease contributing to sectarian 
        violence and terrorism in the Middle East.''
                --Under Secretary of State for Political 
                Affairs Wendy Sherman.

    We agree on Implementation Day in January. Speaker Paul 
Davis Ryan noted,

        ``The President himself has acknowledged Iran is likely 
        to use this cash infusion, more than $100 billion in 
        total, to finance terrorists.''

    This is exactly why a bipartisan majority of the House 
voted to reject the nuclear deal. Sanctions should be only 
lifted when Iran ceases its litany of illicit activities and 
ends its support for terrorism.
    Until that day comes, we should not be complicit in fueling 
a regime that has a long history of hostility toward the United 
States and its allies.
    I am particularly grateful for the bipartisan conduct of 
this committee with Chairman Ed Royce of California and Ranking 
Member Eliot Engel of New York with their thoughtful opposition 
to the Iran deal.
    I believe Iran promotes attacks on American families with 
its pledge of death to America and death to Israel as proven by 
the intercontinental ballistic missile development as cited by 
Chairman Royce and Congressman Deutch.
    Secretary Kerry, from your responses to Chairman Royce's 
questions, what I heard you say is the administration wants to 
let the Iran Sanctions Act expire.
    The administration, extending it through the International 
Emergency Economic Powers Act, is simply a power grab. Allowing 
ISA to expire statutorily is unacceptable.
    With this background, how have Iran's terrorist activities 
been affected by deal and the subsequent lifting of sanctions? 
Has Iranian support for terrorism increased or decreased?
    Secretary Kerry. Well, Congressman, you raise a lot of 
questions in all that and you make some assumptions that I just 
don't--I don't share or agree with.
    We never suggested that the goal is to let it expire. I 
said let's take our time and be thoughtful about it. So you're 
drawing a conclusion that I never lent any credence to.
    Secondly, this goes back to the sort of argument about the 
Iran deal itself. You say we shouldn't lift sanctions until 
they have given up their sponsorship for terror.
    The problem is would they judge--you know, they just have a 
different interpretation about some of those things that would 
have lasted a lifetime and they would have then had a nuclear 
weapon. Iran with a nuclear weapon would have been far more 
dangerous than an Iran without one.
    So if you're worried about terror, the first objective is 
make sure they don't have a nuclear weapon. Now, we've been 
very honest.
    I'm not going to sit here and suggest that some portion of 
the money might not find its way to one of those groups. But 
what they do is not dependent on money, Congressman. Never has 
been.
    They're going to do it anyway. If we hadn't gotten rid of 
the nuclear weapon they were still supporting the Houthis. 
They've still been supporting Hezbollah. They've been 
supporting them for how many years? Countless years.
    Mr. Wilson. Well, now they can finance terrorists in this 
country. Mr. Secretary, this is not right. I yield.
    Chairman Royce. Okay. We're going to go to Mr. David 
Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for your extraordinary service to our country.
    I have four questions that I'm going to run through quickly 
to give you as much time as possible to answer. The first is 
I'm very concerned about the deteriorating state of the rule of 
law and adherence to human rights in Egypt.
    The Egyptian judiciary has long been rife with corruption 
and political agendas. But reports yesterday exemplify how bad 
this situation has become when a Cairo military court handed 
down a mass life sentence to 116 defendants that mistakenly 
included a 3-year-old boy. This is incredibly outrageous and 
really does exemplify how little the Egyptian judiciary and 
security apparatus care for the rule of law.
    And I would like to hear what we're doing about it and 
additionally in the appendix to this year's budget request you 
asked Congress to remove Egypt's partial aide conditions 
accompanying national security waiver and the reporting 
requirement entirely.
    What's the justification for proposing the removal of this 
language and what kind of signal will it send to the Egyptian 
Government and the Egyptian people?
    Secretary Kerry. Congressman, the removal of which 
language?
    Mr. Cicilline. The language related to partial aid 
conditions, the national security waiver and the reporting 
requirement. The second question is you--you know, there are 
tremendous challenges.
    You've outlined them in your testimony and the budget--the 
international affairs budget which funds programs designed to 
confront these challenges continues to shrink.
    Since Fiscal Year 2010 the overall funding for the 
international affairs--that's the base budget plus OCO--has 
been to produce 12 percent and the Fiscal Year 2007 request is 
slightly down from last year.
    What are your most serious concerns about the resources 
that are necessary to confront the many challenges facing our 
country and does this budget really provide the resources that 
you think we need?
    And third and finally, the U.S.-Israeli memorandum of 
understanding I know is going to expire in 2018. I understand 
that we've already begun to discuss a new set of terms.
    What's the status of those negotiations and what kind of 
training and equipment and assistance will Israel need in light 
of increased instability in the region and threats to their 
security? Tried to do those fast.
    Secretary Kerry. Okay. No, I appreciate it. Congratulations 
in moving up to the upper dais there.
    Mr. Cicilline. Thank you.
    Secretary Kerry. The--let me just begin with your question 
about Egypt itself and look, these sentences, obviously, are of 
enormous concern to all of us.
    We've expressed that very straightforwardly and we've seen 
a deterioration over the course of this last--these last 
months, I guess, is a fair way to say it, with arrests of 
journalists and arrests of some civil society personalities.
    We understand that Egypt is going through a very difficult 
challenge right now. There are terrorists in the Sinai, there 
are the challenges of extremism that has played out in bombings 
in Cairo and in Sharm el-Sheikh, elsewhere.
    So it's difficult. Nobody is suggesting otherwise. But we 
believe deeply that countries that protect freedom of speech 
and assembly and encourage civil society will ultimately do 
better and be stronger in their ability to be able to defeat 
extremism.
    We work very closely--I have a good working relationship 
with my counterpart. We talk frequently. We are working on 
these issues on a regular basis.
    We have succeeded in getting some people released. We've 
succeeded in getting some progress on a number of human rights 
issues. But it is a concern. Their judicial system, which 
operates separately, makes some moves that I think sometimes, 
you know, the leadership itself finds difficult to deal with.
    And our hope is that over the course of these next weeks 
and months we can make some progress in moving back on these. I 
do--I think Egypt said something about the 3-year-old, if I 
recall, but I don't want to--I don't want to dwell on it right 
now.
    On the resources, we are cannibalizing a lot of programs 
within the budget. I mean, bottom line is everybody is dealing 
with difficulties in governance today as a result of our budget 
challenges and it's no secret to any of you because these are 
the fights that you've all been engaged in on the floor.
    I think we're making a mistake--I mean, I try not to get 
into the politics in this position at all but I do think the 
United States is not responding in ways that we ought to be to 
our global responsibility as reflected in the budget overall 
and I think that we can and should be doing more.
    I think we handicap ourselves. I think we're behaving to 
some degree--for the richest nation on the face of the planet--
we're choosing to behave more like, you know, a country that 
actually doesn't have resources available to it.
    It's a question of which choices we make, where we want to 
make the overall trades in the budget and we are where we are. 
So we have had to cannibalize considerably to make things work 
and it really, in my judgement, diminishes the ability of the 
most powerful nation on the planet to be able to actually 
affect things more.
    And so we see a frustration on the part of our people that 
the world is in turmoil or we're not responding adequately here 
or there. A fairly significant amount of that is a reflection 
of resources.
    Sometimes it's a reflection of policy judgments--I 
understand that--but a lot of it is driven by the resource 
allocation.
    With respect to Israel and the MOU, we will--we're working 
on it now. We're in negotiations. We have never ever put any of 
Israel's security needs or challenges on the table with respect 
to other issues between us.
    Israel's security comes first and foremost. President 
Obama, I think, has unprecedentedly addressed those concerns 
with Iron Dome, with assistance, with our efforts in global 
institutions to not see Israel singled out and we will continue 
to do what is necessary to provide Israel with all the 
assistance necessary so it can provide for its own security.
    I am confident we will get an MOU at some point in time, 
the sooner the better, because it allows everybody to plan 
appropriately.
    Mr. Cicilline. Thank you, Mr. Secretary. I yield back.
    Mr. McCaul. Thank you. Thank you, Mr. Secretary, for being 
here today. I'm suffering from a major head cold so I may 
have--go a little easy on you today.
    Secretary Kerry. That's good. I don't wish a cold on you 
but I'll take the benefit.
    Mr. McCaul. Last December we passed the visa waiver program 
bill out of my committee. It passed overwhelmingly. It was 
designed to keep foreign fighters from exploiting the visa 
waiver program from certain countries like Iraq, Syria, Sudan, 
and Iran.
    And in the negotiations--and I was in the middle of those 
as were the national security chairman involved with the 
correspondence back and forth between Homeland, State 
Department, and the White House--we carved out two exceptions. 
One was national security and the other one was law 
enforcement.
    In the exchange between the Department of Homeland Security 
they mentioned when we considered humanitarian, business 
purposes, cultural, journalistic, I was in the room with the 
majority leader.
    Those exceptions were rejected. DHS came back again and the 
final email from the White House was that the administration 
supports this legislation--my thanks to all.
    And then finally the White House says I spoke to State 
Department--they did not request any additional edits. The 
administration does not request any changes at this time. We're 
good with the text as drafted. Reopening the bill would require 
us to look at it again.
    Yet the day after it passed, you read a letter to the 
Iranian Foreign Minister stating that parts of this law could 
be waived to accommodate Iranian business interests.
    In my judgment, having played a part in that negotiation, 
it was in direct contradiction with the intent and the clear 
definition of the statute and the law.
    It seems to me you're putting the interest--business 
interests of Iran over the security interests of the United 
States and, quite frankly, either misconstruing or rewriting 
the very law that we passed overwhelmingly by the Congress. I 
want to give you the opportunity to respond to that.
    Secretary Kerry. I really appreciate it, Congressman 
McCaul. Thank you very much and I appreciate the work we've 
done to try to work through this.
    Look, we respect, obviously, the congressional intent and 
we respect the purpose of this. We all share that goal. We have 
to protect the country.
    We have to have adequate control over who's coming in to 
the country and we learned, obviously, in the course of the K 
visa situation that there's more that could be done conceivably 
to be able to analyze and dig into background.
    But the bottom line is this. The letter that I wrote to the 
Iranian Foreign Minister was not an excuse for anything. It 
simply said that they were arguing that we had violated JCPOA 
and I wrote a letter saying no, it does not violate JCPOA.
    It explained and defended the law and it made clear to them 
that we were going to keep our JCPOA commitments.
    Now, the--what we're doing is actually following the letter 
of the law. But you have to--I please would like you to 
understand that our friends, our allies--French, Germans, 
British, others--are deeply concerned about the impact of this 
law inadvertent on their citizens.
    They have dual nationals, and if one of--and if one of 
those dual nationals just travels to Iran all of a sudden and 
they're in a visa waiver program and they're a very legitimate 
business person, all of a sudden that person's ability----
    Mr. McCaul. If I could use my time. Look, I wrote the law.
    Secretary Kerry. Let me just finish.
    Mr. McCaul. I'm the author of the bill. I understand the 
intent of the law. We had conversations with the White House. 
You tried to get this business exemption written into the law.
    That was rejected by the leadership and the Congress, and 
the time to have changed that was prior to the President 
signing it into law.
    But once the President signed it into law you can't just go 
back and either violate or rewrite it. I know the law. I 
knocked it up out of my committee and you're talking to the 
author of the bill.
    That was not the intent of Congress to carve out a business 
exemption and I understand--I understand we're not--
[simultaneous speaking]--the French and the Iranians in all 
this stuff. But that was not the intent of the Congress.
    Secretary Kerry. Well, Mr. Chairman, we're not carving out 
a wholesale waiver intent. It's a case by case basis, very 
carefully and narrowly tailored, number one.
    Number two, the text of the law is clear. The Secretary of 
Homeland Security----
    Mr. McCaul. I agree with you.
    Secretary Kerry [continuing]. Waived the travel, can waive 
the travel or dual nationality restrictions if that--if he 
deems that it is in the law enforcement or national security 
interests of the country to do so.
    Now, we believe the full and fair implementation of the law 
is in fact in our national security interest. We have a very 
thorough systematic----
    Mr. McCaul. I guess my time--I guess it depends on how you 
define national security interests.
    I will commend--Jeh Johnson called me to add Libya, 
Somalia, and Yemen to this list and I am----
    Secretary Kerry. I concurred in that.
    Mr. McCaul [continuing]. And I commend that decision. I'm 
sure you're going to construe the law in your interpretation. I 
do think adding those three countries was a positive step.
    Just one last question. On the designation of Iran as a 
jurisdiction of primary money laundering concern, are we going 
to keep that designation or is there any intent by you to lift 
that designation?
    Secretary Kerry. We've had no such determination. I haven't 
contemplated it.
    Mr. McCaul. Do you intend to consider additional measures 
to provide economic relief to Iran to lift any other 
designations?
    Secretary Kerry. None at this point in time that I know of.
    Mr. McCaul. Okay. And I appreciate that.
    The Chair now recognizes Brad Sherman of California.
    Mr. Sherman. As to your bill, I'd point out that most ISIS 
fighters go into Turkey where perhaps their passports are 
stamped and then they sneak into ISIS-controlled areas where 
ISIS has a shoddy record of stamping passports, and we may have 
to look at every European passport stamped in Turkey that would 
obviously be an issue.
    Secretary Kerry. Actually, what is now an issue is Daesh's 
ability to actually produce phony passports.
    Mr. Sherman. That would be another issue.
    Mr. Secretary, I've got so many issues. Most of them, I 
think, you'll choose to respond for the record.
    First, on the budget, this committee had urged and voted 
that you spend $1\1/2\ million broadcasting in the Sindhi 
language to reach a huge part of Pakistan--southern Pakistan--
in the Sindhi language. We talked about this last time you were 
here.
    Now your budget requests an additional $35 million for 
broadcasting efforts. My hope is that you'll be able to respond 
for the record that if we get you a substantial increase, maybe 
not the full $35 million but the first additional dollars will 
be to broadcast in the language of southern Pakistan.
    Secretary Kerry. I think it's worth $35 million, 
Congressman.
    Mr. Sherman. It only takes $1\1/2\ million. The rest is for 
whatever else you choose to spend the money on, and I want to 
compliment your general counsel in Karachi for looking in to 
the assassination of Anwar Leghari who was a protector of 
Sindhi culture.
    As to our work against ISIS, during World War II we had 
bombing rules of engagement that led to the deaths of 70,000 
French civilians because we were serious.
    General DeGaulle never urged us not to bomb an electric 
facility because it would inconvenience French civilians. He 
never asked Dwight Eisenhower not to hit a tanker truck because 
a civilian might be driving it.
    Yet I'm told that in bombing ISIS we will not hit a moving 
truck and we will not hit electric power lines because not only 
do we not want to kill any civilians, even those working for 
ISIS, but we don't want to inconvenience those living under 
ISIS, and it is a major inconvenience not to have electricity. 
I hope you would comment for the record about our rules of 
engagement against ISIS.
    I now want to focus on Iran. North Korea provided the 
nuclear technology that was used at al-Kibar, which the 
Israelis destroyed in Syria a few years ago.
    Now, North Korea has a dozen nuclear weapons. That's about 
what they need. Perhaps the next one goes on eBay. Not quite 
that flippantly but you get the point.
    I spoke to the Chinese Foreign Minister yesterday and I 
will urge you to urge him as I did that China prevent any 
nonstop flight over its territory from North Korea to Tehran. 
Such a nonstop flight could easily export one or several 
nuclear weapons.
    If, on the other hand, that flight stops for fuel as, of 
course, it should if China requires they will--I'm sure the 
Chinese will take a look at what's on the plane.
    It's natural that you're here defending the nuclear deal. I 
didn't vote for it but there are very good aspects of that 
deal. But I'm concerned that the administration now is just in 
a role of defending Iran as if any comment about Iran is an 
attack on the deal.
    During Rouhani's tenure we've seen a lot more executions in 
Iran and I hope that you would personally issue a statement 
condemning Iran's violation of human rights, particularly when 
they kill people for the so-called crime of waging war on God.
    As to the missile sanctions, you indicate we sanctioned a 
few companies. We sanctioned a few individuals. Those companies 
don't do business in the United States.
    Those individuals do not want to visit Disneyland, and I 
hope that you would sanction the Iranian Government for its 
violation with sanctions that actually affect the Iranian 
economy.
    Otherwise, to say certain individuals who have no intention 
of coming to the United States will not be allowed in the 
United States indicates an acceptance of Iranian violations.
    And under the U.N. Security Council Resolution 2231 Russia 
can't sell fighter planes to Iran unless the Security Council 
specifically approves that. I'll ask you to--will we use our 
veto to prevent fighter planes from being sold to Iran from 
Russia?
    Secretary Kerry. Well, I don't think you have to use a 
veto. I think it's a matter of a committee--there's a committee 
and it's in approval in the committee. But we would not approve 
it.
    Mr. Sherman. And would we--would we use our veto if 
necessary to prevent the sale?
    Secretary Kerry. To the best of my knowledge, Congressman, 
I don't--I haven't looked at the specifics of the transaction, 
et cetera. In principle, we are very concerned about the 
transfer of weapons and so, you know, we would approach it with 
great skepticism.
    But I haven't seen the specific transfer or what the 
request is. We have a committee that will analyze this 
thoroughly before anything happens and the committee signs off 
on it. I assure you we'll stay in touch with you.
    Mr. Sherman. Thank you.
    Mr. McCaul. Chair recognizes Mr. Poe from Texas.
    Mr. Poe. I thank the gentleman. Thank you, Mr. Secretary, 
for being here.
    I just want to say amen to what my friend from California 
has said regarding the folks in Iran that had been murdered by 
the regime. Two thousand three hundred have been executed, in 
my opinion mostly for political reasons or religious reasons.
    I would hope that the United States Government, through the 
State Department, would condemn this action by Rouhani and the 
Iranian Government.
    A couple of questions dealing with Georgia and Ukraine. The 
Russians occupy a third of Georgian territory. They occupy 
Crimea and they occupy parts of Ukraine's eastern territory.
    Is it the U.S. position or not--tell me what the U.S. 
position is that the Georgia occupation is unlawful--Crimea 
occupation unlawful and the eastern Ukraine possession unlawful 
or not?
    Secretary Kerry. That's correct. They are.
    Mr. Poe. So it's our position the Russians are unlawfully 
holding territory belonging to somebody else in those specific 
incidents?
    Secretary Kerry. In one case not holding but engaged in 
intrusions which are assisting in the holding.
    Mr. Poe. And that would be in eastern Ukraine?
    Secretary Kerry. Correct.
    Mr. Poe. Also, your predecessor has listed Georgia--if you 
have time this year it'd be great for our relationship if you 
could go to Georgia.
    Secretary Kerry. I'm hoping to.
    Mr. Poe. And specifically I'd like to talk about a piece of 
legislation that has passed the House unanimously and that's 
the Foreign Aid Transparency Accountability Act that I have 
authored along with Mr. Connolly from Virginia.
    It basically requires that there be accountability for 
foreign assistance whether--transparency and also evaluations 
of our aid to other countries. I think transparency in 
evaluations are good. The American public needs to know how 
their money is being spent and if it's being spent well then 
maybe keep it up. If it's not, then maybe we should stop it.
    The State Department, though, has resisted this legislation 
even though it's passed the House. It's passed your former 
committee unanimously over in the Senate and Raj Shah, when he 
testified in this committee he supported it when he was USAID 
director.
    Do you support this type of legislation or this specific 
legislation of transparency and accountability and evaluations 
of our foreign assistance?
    Secretary Kerry. Congressman, of course. We share the goal 
completely and yes, we support transparency and accountability 
and we have huge transparency and accountability.
    It's one of our problems. I mean, I think--I don't--I'm 
trying to get the numbers pinned down but the person hours and 
numbers of people assigned just to provide the transparency and 
accountability to all of you and to others is staggering.
    We lose an enormous amount of our implementing productivity 
to simply providing the transparency and the accountability.
    We're currently--we have 51 investigations going on with an 
unprecedented number of hundreds of thousands of pages of FOIA 
that we're responding to.
    I've had to cannibalize bureaus to ask, you know, young 
capable lawyers, professionals to come out of one bureau to go 
sit and work on this so that we're able to meet the demands, 
and we're overburdened.
    And I've had to--I've appointed--actually appointed a 
senior Ambassador, Janice Jacobs, to be our transparency 
accountability sort of coordinator to make sure we're able to 
do this.
    So our concern is, you know, doing this in a way that is 
smart, efficient, efficient for you, efficient for us. We don't 
resist the goal in the least.
    The American people have a right to absolute accountability 
and transparency. We think there are a lot of ways in which 
it's already provided. There are ways we may be able to 
streamline some of that.
    So we'd like to work with you on this legislation so that 
it isn't, you know, another moment where we're having to 
transfer a lot of people away from doing what we're supposed to 
do.
    Mr. Poe. Well, the legislation----
    Secretary Kerry. If you want to plus up the budget enough 
we can do it all.
    Mr. Poe. Reclaiming my time. That's exactly what the bill 
does. You have different group departments in the State 
Department doing transparency and evaluations. This makes it 
simpler for all of us.
    Secretary Kerry. Right. But we want to have a little more 
say in----
    Mr. Poe. Reclaiming my time. It's passed the House 
unanimously. It's passed the Senate Foreign Relations Committee 
unanimously. But we're getting push back from the State 
Department on the legislation.
    Secretary Kerry. We just want to make sure----
    Mr. Poe. And just a side note--just a side note----
    Secretary Kerry. Congressman, only because we want to make 
sure it works for us in terms of our process. I mean, who can 
resist a piece of legislation--the Foreign Aid Accountability 
Transparency Act?
    Mr. Poe. We want it to work for the American people because 
as you know--reclaiming my time. I have one last comment.
    You and I and most of the Members of Congress--when you 
mentioned the concept of foreign aid out there in the country 
to citizens, you know, they kind of get their backs bowed 
because people have been cynical for years, even though it's a 
little bit of money, about foreign aid.
    And this legislation, I think, tells folks in the 
community--citizens, taxpayers who send this aid all over the 
world--that it's working and we can have transparency 
evaluation for it so they can feel better about sending that 
aid.
    Thank you, Mr. Chairman. I yield my time.
    Secretary Kerry. I'm with you. I support that 100 percent. 
President Obama does and he has instructed all of us to try to 
make sure we're streamlining and being as transparent as we can 
be.
    Mr. McCaul. If we just move on. I know the Secretary's time 
is limited.
    Mr. Grayson from Florida.
    Mr. Grayson. Secretary Kerry, I'm going to ask you a 
question that is susceptible to a yes or no answer or if you 
prefer yes or no with an explanation.
    Has Iran adhered to the nuclear deal?
    Secretary Kerry. I'm sorry. Has what?
    Mr. Grayson. Has Iran adhered to the nuclear deal? Yes or 
no.
    Secretary Kerry. Yes, to the best of our judgement.
    Mr. Grayson. Okay. Thank you for that.
    Now, there was concern that Iran's money would be used to 
increase terrorism in the region after the deal was entered 
into. Has Iran's support for terrorism increased, decreased or 
remained the same since the deal was enacted?
    Secretary Kerry. I think the best of our judgement would be 
it has remained the same.
    Mr. Grayson. All right. Is there any evidence that the 
money that Iran received as a result of the deal has been 
diverted to support terrorism?
    Secretary Kerry. We need to get into classified session to 
discuss that.
    Mr. Grayson. All right.
    Secretary Kerry. It's a little more complicated.
    Mr. Grayson. We heard the phrase used at the time the deal 
was under negotiation and discussion that Iran would become a 
nuclear threshold state and it would push the limits of the 
agreement and get as close as it could to developing a nuclear 
weapon during the term of the agreement so that in 8 or 10 or 
12 years it would actually have a nuclear weapon.
    Is there any evidence to support that at this point?
    Secretary Kerry. No.
    Mr. Grayson. What is your inference regarding that? What is 
your inference regarding behavior?
    Secretary Kerry. Well, the fact is Iran was a threshold 
nation when we began this discussion. Iran had 12,000 kilograms 
of 5 percent enriched. It had--I forget how much--20 percent 
enriched uranium.
    It was one step away from being able to produce highly 
enriched uranium for bomb manufacturing. It had enough enriched 
uranium to be able to make ten to 12 bombs. It has the 
technology and know-how. It has already mastered the fuel 
cycle.
    So in effect it already was at the threshold. That's one of 
the reasons why we felt such urgency to try to close off these 
paths for actual movement to that and Iran has accepted 
increased transparency and accountability beyond anything that 
anybody else is engaged in on the planet.
    I mean, they've accepted the additional protocol. They've 
accepted higher standards for 25 years of tracking of all 
uranium manufacturing. They've accepted 20 years of television 
intrusion on their centrifuge production and limited levels of 
enriched uranium in the stockpile and limited levels of 
enrichment itself--3.67 percent for 15 years.
    So they don't have the ability to be able to make one 
today--just don't have it physically in that regard and we are 
confident of our ability to know what they're doing.
    Mr. Grayson. Has the administration ever tried to interdict 
Iranian shipments to help terrorism in the region?
    Secretary Kerry. Yes. We have in fact successfully 
interdicted.
    Mr. Grayson. And is it likely that that effort will 
continue?
    Secretary Kerry. Not likely. It will for certain.
    Mr. Grayson. It will for certain? Can you give us one 
particular example that is not classified?
    Secretary Kerry. Recently we turned around a convoy. We 
didn't know exactly what was on it but we thought it was headed 
to Yemen and we made sure that it went back to Iran.
    Mr. Grayson. All right. I'd like to ask you a couple 
questions about ISIS. What is your own personal or agency 
assessment regarding the necessity to have ground troops 
involved in the fight against ISIS? Not American ground troops 
necessarily but any ground troops.
    Secretary Kerry. Well, American ground troops in the--
American special forces are engaged as enablers on the ground 
in Syria today and in Iraq and I am a 100 percent supporter of 
that.
    I strongly advocate that that is a powerful way to have an 
impact. I am for trying to get rid of Daesh as fast as is 
feasible without a major American ``invasion'' but by enabling, 
by using our special forces, by augmenting the Syrian, Arab and 
other presence on the ground I believe it is imperative for us 
to try to terminate this threat as rapidly as we can.
    Mr. Grayson. Has the American Government had discussions 
with Saudi Arabia, the UAE, Oman, or Jordan concerning whether 
they would lend ground troops to the effort to fight ISIS?
    Secretary Kerry. We are engaged in discussions with them 
regarding their offers to do so at this time.
    Mr. Grayson. Can you tell us anything about that?
    Secretary Kerry. Not--no, I think it's in a preliminary 
stage. It's in discussion. They've indicated a willingness to 
be helpful and this is in the fight against Daesh, let me 
emphasize, and as part of the President's effort to explore 
every possibility that is reasonable of ways in which to have 
an impact on ending the scourge of Daesh that is being 
evaluated.
    Mr. Grayson. What about other countries in the region--
Pakistan, Turkey, Egypt, Algeria, Morocco? Have you had similar 
discussions regarding their potential to send ground troops 
against ISIS?
    Secretary Kerry. There have been broad discussions with 
various mil-to-mil discussions and intel discussions regarding 
possible provision of people under certain circumstances.
    Mr. Grayson. Thank you, Mr. Secretary.
    Mr. McCaul. The Chair recognizes----
    Mr. Issa. Chairman, could I ask unanimous consent request?
    Mr. McCaul. Yes, sir.
    Mr. Issa. Thank you. Mr. Chairman, I ask unanimous consent 
that the letter dated December 13, 2012 addressed to then 
Secretary Hillary Rodham Clinton be placed in the record.
    Mr. McCaul. Without objection, so ordered.
    Mr. Issa. And I further ask that the response from the 
State Department dated March 27th, 2013 to then Chairman 
Darrell Issa be placed in the record.
    Mr. McCaul. Without objection.
    Mr. Issa. Lastly, I would ask that the news articles from 
the Daily Caller dated January 30, 2016, and the Hill, dated 2/
2/2016, be placed in the record.
    Mr. McCaul. Without objection, so ordered.
    Mr. Issa is recognized.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, I want to congratulate you on 
naming Ambassador Jacobs as your czar, if you will, for FOIA 
requests.
    I share with you the sympathy that the American people's 
desire to know things has outpaced the automation and the 
process for FOIA from the State Department.
    As a former businessman, I might suggest though that as 
good as the Ambassador is perhaps you need to turn it over to 
somebody who is much better at getting data out rather than 
evaluating the details of State Department communication.
    Having said that, the information I put in the record is 
for a reason. In the last days of Secretary Clinton's 
administration I sent her a letter specifically related to use 
of personal emails and I did so not because of Benghazi, not 
because of any other investigations you might be familiar with 
but because in the investigation of the Solyndra scandal at 
Department of Energy we had discovered that a political 
appointee, Jonathan Silver, had been using personal emails to 
circumvent FOIA and the scrutiny.
    He went so far as to say, and this is in the letter to 
Secretary Clinton, ``Don't ever send an email to DOE email with 
a personal email address. That makes it subpoenable.''
    The letter went on to go through a number of those things 
and it specifically asked then Secretary Clinton whether or not 
she had an email and whether or not any senior agency officials 
ever used a personal email account to conduct official 
business--have any senior agency officials ever used alias 
emails.
    That was a different investigation. And it went on, and I 
know by now you must have been made familiar with this letter. 
Approximately 2 months into your administration, as the 
Secretary your agency responded to that letter by not 
responding. Your agency sent a response that basically said 
here's the title and the rules.
    Now, since it's been reported in those two articles that 
you personally communicated with Secretary Clinton your 
personal email to her personal email, is it true that you were 
aware that she had a personal email and that she used it 
regularly?
    Secretary Kerry. I have no knowledge of what kind of email 
she had. I was given an email address and I sent it to her.
    Mr. Issa. Did you look at the email address? I mean, was it 
a .gov and would you have noticed if it wasn't a .gov?
    Secretary Kerry. I didn't think about it. I didn't know if 
she had an account or what the department gave her at that 
point in time or what she was operating with. I had no 
knowledge. But let me just say to you----
    Mr. Issa. Okay. No, I appreciate that's a responsive answer 
that you didn't know you were sending to her personal email 
from your personal email.
    Do you know--at least one of those documents now has been 
classified secret--do you know when that could be made 
available in camera to this committee so we'd appreciate what 
it was about?
    Secretary Kerry. I don't know specifically.
    Mr. Issa. Okay. You are aware that it's been classified 
secret. Is that correct?
    Secretary Kerry. I am aware.
    Mr. Issa. Okay. The letter which did not respond to the 
specific questions occurred on your watch. You've now had your 
watch for 3 years.
    Are you prepared to answer the questions in that letter 
including who all is using email and what you are doing about 
it?
    Secretary Kerry. Well, Congressman, in principle I'm 
prepared. I'm prepared to have total accountability and I think 
we do. Let me just say to you my direction from day one to the 
entire department has been clear. Get the Clinton emails out of 
here into the----
    Mr. Issa. And I appreciate that, although it is amazing 
that we're still waiting for many of them.
    Let me ask you just a couple more quick questions and then 
you can have the remaining time.
    Secretary Kerry. I want to finish my answer.
    Mr. Issa. In the case of the use of personal email, we've 
discovered that additionally many individuals appear to be 
using text as a method of communication.
    Do you use text as a means of communication or do you know 
of any of your senior staff who use text as a method of 
communication?
    Secretary Kerry. Congressman, let me answer your question 
by saying this to you. In March of last year I wrote a letter 
to the inspector general that I hired for the department----
    Mr. Issa. I appreciate that you hired one and that your 
predecessor never had one.
    Secretary Kerry [continuing]. And I asked--I asked the 
inspector general to look at all of the email practices, 
communications practices of the department in order to deliver 
a review and we are working with the IG's observations, which 
have been helpful, to make sure that the department is living 
up to the highest----
    Mr. Issa. I appreciate that but there's a pending question, 
Mr. Secretary, in----
    Secretary Kerry. But I don't want to--I'm not going to----
    Mr. Issa. Would you answer the text question, please?
    Secretary Kerry. Congressman, I'm not going to get into an 
email discussion with you here on the budget of our department 
with all----
    Mr. Issa. Mr. Secretary, this committee is entitled to know 
the communication and----
    Secretary Kerry. And our communications process is 
thoroughly being analyzed by the inspector general.
    Mr. Issa. I have a pending----
    Secretary Kerry. And we have had countless communications--
--
    Mr. Issa. Mr. Secretary, I appreciate that. It's a simple 
pending question. Do you text or do you know of other 
individuals in your senior staff who use text?
    Secretary Kerry. I have no idea whether they do or don't. I 
occasionally----
    Mr. Issa. Okay. And do you use text?
    Secretary Kerry [continuing]. I occasionally text some of 
the people.
    Mr. Issa. And the final question is how are you seeing that 
that text which by definition is required to be saved under the 
FOIA requirements under the Federal Records Act, how are you 
seeing that those texts are preserved since they are not 
otherwise preserved?
    Secretary Kerry. That is precisely what we are working on 
within our process today to make sure that everything--and by 
the way, I don't text anything regarding policy.
    I only text my logistical administering staff with respect 
to whether I'm arriving at somewhere or going something. 
There's nothing substantive ever texted.
    Mr. Issa. Well, I would certainly assume that your private 
email to Hillary's private email also was intended to to be----
    Secretary Kerry. Yeah, but that's secured. All emails are 
on the server that is the State Department and it's all 
preserved. It's all part of the national records and that's----
    Mr. Issa. I appreciate that, Mr. Secretary. But Hillary 
Clinton's were not and your personal email was not when a 
secret exchange occurred.
    Secretary Kerry. Well, I know. But you're fixated--you 
know, you're fixated on this. I don't know how many 
investigations there are. I think people are really getting 
bored with it, Congressman.
    There are an awful lot of important discussions, policies, 
and other things and that's what I'm here to discuss.
    Mr. Issa. Mr. Secretary, I appreciate that.
    But as I said earlier, this is not about any of the 
investigations. This is about the work that was being done 
related to the Federal Records Act and compliance.
    It absolutely is more about whether the American people can 
get what they're entitled to under a law that you, quite 
frankly----
    Mr. Engel. Mr. Chairman, I would note that the gentleman's 
time has expired.
    Secretary Kerry. I have taken unprecedented steps including 
with the inspector general to make certain that that is fully 
adhered to and I stand by the steps we've taken.
    Mr. Issa. Thank you. Thank you, Mr. Speaker--Chairman.
    Mr. McCaul. I appreciate the promotion.
    The Chair recognizes the ranking member.
    Mr. Engel. Thank you. I ask unanimous consent to enter into 
the record the memo of the Inspector General Linick, February 
3, 2016, where he noted that Secretary Powell and Secretary 
Rice's staff used private emails as well. I really think we 
should be consistent and not just have a political attack on 
Hillary Clinton.
    Mr. Issa. As long as we can enter into the record, Mr. 
Chairman, the----
    Mr. McCaul. Well, let me just say----
    Mr. Issa. I reserve the point.
    Mr. McCaul [continuing]. Without objection, so ordered.
    Mr. Issa. I reserve a point.
    Mr. McCaul. The Chair has recognized the ranking member.
    Mr. Engel. May I tell the gentleman this is not the 
Oversight Committee? This is the Foreign Affairs Committee.
    Mr. Issa. I appreciate that and the only thing that I ask 
is that----
    Mr. McCaul. Gentleman is recognized.
    Mr. Issa [continuing]. Alongside that that the information 
where each of the former Secretaries made their accompanying 
statements including Secretary Powell saying that they were not 
classified I'm happy to have the record complete.
    Mr. Keating. Mr. Chairman, point of order. Mr. Chairman, 
point of order.
    Mr. McCaul. Mr. Keating is recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    I just wanted to know for those of us that are waiting to 
ask questions how much time is the Secretary allocated to this 
meeting?
    Mr. McCaul. He's here until 12:30 and so with that the 
Chair recognizes Ms. Frankel from Florida.
    Ms. Frankel. Thank you. Thank you very much.
    Mr. Secretary, I want to just thank you for your service. 
I'm very proud to have you as our Secretary of State and I just 
want to in a most respectful way really object to my 
colleague's litigating the 2016 Presidential contest here in 
this foreign affairs meeting and I think there's some more 
important things to discuss other than Hillary Clinton's 
emails.
    Specifically, I'd like to talk about what's happening in 
Syria and I would first ask you if you could very specifically 
detail the type of suffering that is going on and how many 
people are involved.
    Secretary Kerry. Well, Congresswoman, thank you.
    Syria represents the most significant humanitarian 
catastrophe and movement of people, deprivation of rights, 
slaughter since World War II.
    There are 12\1/2\ million people or so who are displaced or 
refugees, about 4\1/2\ refugees, more than 2 million in Jordan, 
million something in Lebanon and 2 million or so in Turkey.
    Massive numbers of people, as we've seen--almost a million 
already--who have entered into Europe, sometimes 5,000, 10,000 
a day trying to move across the border.
    But what has happened in Syria itself the slaughter by 
Assad of his own people, the barrel bombs that have been 
dropped on schools, on kids, on innocent civilians, the torture 
which has been documented in vivid photographs, grotesque----
    Ms. Frankel. And is it still occurring as we speak?
    Secretary Kerry. Well, the slaughter is still occurring. 
The innocent people being killed, the bombs that have dropped 
on hospitals and on schools that has obviously occurred, which 
is why we have pushed so hard to try to get a cessation of 
hostilities.
    But the combination of torture--of not just the torture but 
of starvation, communities that have been laid under siege, 
people who haven't seen food supplies, medical supplies in 
years now----
    Ms. Frankel. And children out of school?
    Secretary Kerry. Children out of school, people walking 
around looking like skeletons like people in the liberation of 
the concentration camps of World War II.
    This is horrendous beyond description, and the beheadings, 
the death by fire, and the elimination of certain people by 
virtue of who they are, this is really a sad tragic moment for 
a world that hoped that we were moving to a new order of rule 
of law and of possibilities for young people and so forth.
    So it's really----
    Ms. Frankel. So let me just follow up on that.
    If you could give us a prognosis. How long do you think it 
will be until these millions of people can either get back to a 
normal life in any way?
    Secretary Kerry. It will be when Russia, Iran, the parties 
at the table of the International Syria Support Group including 
the United States and our European allies and our Gulf State 
friends and Turkey and Egypt and others come to the table ready 
to implement the Geneva communique which requires a 
transitional government which is precisely what we are trying 
to do.
    Ms. Frankel. So let me----
    Secretary Kerry. That is the moment where things could 
begin to turn conceivably for the better. But it's going to be 
very difficult.
    Ms. Frankel. And once you get to that point is that where 
you then envision at--trying to go after ISIL or Daesh, as you 
call them?
    Secretary Kerry. No. We're going after Daesh now as 
powerfully as possible, given the difficult circumstances of 
the country.
    It would be much better if we were able to get a transition 
government in place, according to the Geneva structure, and 
then have the United States and Russia and all of the parties 
focus on Daesh and Nusra and be able to join together.
    The difficulty with that is with Assad there and the 
suspicion about intent by some countries simply to shore up 
Assad, it's impossible to be able to do that sufficiently until 
you have resolved this process or at least sufficiently engaged 
in that process and are far enough down the road that you then 
can license the ability to have a kind of cooperative effort on 
Daesh. The cooperative effort could end Daesh very, very 
quickly.
    Ms. Frankel. But that will require ground forces, you 
believe?
    Secretary Kerry. Well, the ground forces are there. You 
have the Syrian army. If you have an ability to be able to 
bring people together around a transition government you have 
plenty of people on the ground who can then join together and 
together the forces from the air and the ground can quickly 
deal with the problem of Daesh.
    That's why dealing with the question of Assad is so 
critical. People aren't sitting around caught up in this notion 
that just because people said Assad has to go that's why we're 
sticking with the policy.
    It's because if Assad is there you cannot end the war. As 
long as Assad is there the people supporting the opposition, 
the countries that are defending their right not to live under 
a dictator are going to continue to support those people.
    Ms. Frankel. Thank you.
    Chairman Royce. Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for your time today.
    I'd like to try and take it back to something regarding the 
budget. My question--first question deals with the United 
Nations Relief and Work Agency in regard to our support of the 
Palestinians.
    To my knowledge, the American taxpayer spends about $277 
million per year between the Fiscal Year 2009 and 2015 to 
support these programs.
    Meanwhile, UNRWA staff unions, including the teachers 
union, are frequently controlled by members affiliated with 
Hamas. The curriculum of UNRWA schools which use the textbooks 
of their respective host governments or authorities has long 
contained materials that are anti-Israel, anti-Semitic, and 
supportive of violent extremism.
    Now, despite UNRWA's contravention of the United States law 
and activities that compromise its strictly humanitarian 
mandate--its strictly humanitarian mandate--UNRWA continues to 
receive United States contributions including $408 million in 
2014.
    Just wondering if you could quickly sum up for us how your 
department is using this funding and your budget to discourage 
these activities. Taxpayers are loathe for paying for 
terrorism, terrorist activities, and support of terrorism, and 
I know you know this.
    Secretary Kerry. Absolutely, and not only know that, I 
mean, the bottom line is it's disgraceful and it's unacceptable 
and we've made that clear and so have the leadership, by the 
way, of UNRWA. They have--and the United Nations. There is 
now--has been very strict policy and procedure in place in 
order to prevent this kind of activity to ensure neutrality to 
prevent the funds and programs from benefitting any terrorist 
activity, obviously, and we----
    Mr. Perry. But how does that--with all due respect, how is 
that manifested? You say we have policies in place but yet they 
continue to do it and the American taxpayer continues to fund 
this organization. So how----
    Secretary Kerry. Well, yes. And the people who have done it 
need to be fired and/or, you know----
    Mr. Perry. But are they, sir?
    Secretary Kerry. They should be.
    Mr. Perry. How do we ensure accountability? How do you take 
that money and say to these folks you're not getting the money? 
How do you use the leverage that----
    Secretary Kerry. Well, we have pushed UNRWA as a result of 
what happened to condemn racism and to assess every allegation 
that has been brought to the agency about this misbehavior and 
misconduct, and in those cases in which investigations have 
found that misconduct occurred the staff are subject to 
remedial and disciplinary action and that's what they have 
promised us is taking place.
    Mr. Perry. Is it ever considered to just withdraw the 
funding until we see a good faith effort?
    Secretary Kerry. Well, the problem is--yes, it's been 
considered and in a couple of cases it's been mandated, and the 
problem is we don't get back.
    I mean, we've lost our vote at UNESCO, as I think you know, 
because of activities beyond our control which the Palestinians 
engaged in by going to the U.N. and seeking membership.
    And as a result of that, we are hurt. We don't have a vote. 
We didn't control their action. It wasn't a deterrent. But we 
have now lost our ability to be able to protect Israel to stand 
up and fight within the mechanisms.
    So I think being draconian about it is not the best way to 
do it. We're being successful right now in being able to hold 
people accountable and I think that's the best way to proceed.
    Mr. Perry. And I appreciate the effort. I just--I see it 
differently. I don't think anybody is being held accountable 
and I would just beseech you that the Federal Government's $19 
trillion in debt.
    The taxpayers are under siege and we don't have money to 
waste on organizations that support terrorism and that's just 
how I see it.
    But I would just ask you to consider that more than maybe 
you have. Moving on, looking at your budget, it looks like last 
year we spent about $300 million on the United Nations High 
Commission for Refugees and associated programs, and with what 
we see in Syria it seems to me that the American taxpayer is 
rightly--I mean, we want to do our part.
    We don't want to see anything--we don't want to see the 
horrific things happen to these people, the women and the 
children, and we want to do our part to be good neighbors and 
good stewards in the world.
    That having been said, these folks are coming to our shores 
and then school districts and hospitals and taxpayers pay 
doubly.
    I sent a letter to the administration asking why we haven't 
pursued a safe zone in the border region of Syria and Turkey as 
some kind of a program or a strategy to make sure that they're 
not refugees far from their country.
    Can you enlighten us at all whether that's--because I 
haven't gotten a response whatsoever. Is that even a 
consideration?
    Secretary Kerry. That's been very much a consideration, 
Congressman, and it's a lot more complicated than it, 
obviously, sounds.
    If you're going to have a safe zone within Syria itself it 
has to be exactly that. It has to be safe. How do you make it 
safe? How do you prevent a Syrian air force barrel bomber from 
flying over?
    Well, you got to have aircraft in the air. You got to take 
away their air defenses as a result. How do you prevent Daesh 
from coming in and attacking or the Syrian army from coming in 
and attacking?
    It has to be safe. That means somewhere between 15,000 to 
30,000 troops have to be on the ground in order to make it 
safe. That's the judgement of the Defense Department.
    Now, are we prepared to put that on the ground? I mean, 
I've heard these calls for a safe zone.
    Mr. Perry. I'm not calling for American troops to be on the 
ground. We're already flying in the area, as you know.
    Secretary Kerry. Right, and who is going to make it safe? 
Right now safety is found by going to Jordan or getting to that 
berm where there are about 15,000 people trying to get into 
Jordan and trying to make them safe there or getting to Turkey 
or getting to Lebanon. That's safety.
    Or trying to get to Europe. What we're trying to do is make 
it safe by getting a cessation of hostilities in place, getting 
humanitarian assistance delivered and getting a political 
process that could actually end the violence. That's the safest 
thing of all----
    Mr. Perry. Thank you, Mr. Chairman. I yield.
    Secretary Kerry [continuing]. And it doesn't require, we 
hope, thousands of troops on the ground to be able to provide a 
safe zone.
    Chairman Royce. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Obviously, this is a difficult time in the world. Multiple 
complexities, multiple challenges in the world.
    But I'm going to shift to south Asia where we certainly 
have some opportunities but also some challenges. You know, it 
is a time of unprecedented increasing relationships between the 
United States and India. So lots of positive movement there.
    One area of complexity though is, you know, the pending 
sale of F-16 fighters to Pakistan and, you know, given 
Pakistan's continued support of terrorism throughout the region 
but certainly--you know, we saw recent terrorist attacks in 
India in January at the Air Force Base.
    At a time when we're seeing progress in U.S.-India 
relationships, understanding the complexity of the region, 
understanding we do have vested interests in helping Pakistan 
fight terrorists.
    I'd be curious from your perspective if Pakistan is doing 
enough separating good terrorists versus bad terrorists and 
enough domestically within Pakistan to fight these terrorist 
threats that not just threaten to destabilize India but also, 
you know, our interest in Afghanistan as well.
    Secretary Kerry. Well, Congressman, thank you.
    First of all, thank you for your thoughts about India and 
the sensitivity there and we acknowledge that.
    We've been really working hard building the relationship 
and trying to advance even the rapprochement between India and 
Pakistan and we encourage that. I think it's required courage 
by both leaders to engage in the dialogue that they've engaged 
in.
    And needless to say, we don't want to do things that upset 
the balance. But we do believe that Pakistan is engaged 
legitimately in a very tough fight against identifiable 
terrorists in their country that threaten Pakistan and they've 
got about 150,000 to 180,000 troops out in the western part of 
their country.
    They've been engaged in north Waziristan in a long struggle 
to clear the area and move people out and they've made some 
progress in that.
    Is it enough, in our judgment? No. We think that more could 
be done. We're particularly concerned about the sanctuary 
components of Pakistan and we're particularly concerned about 
some individual entities in Pakistan that have been supportive 
of relationships with some of the people that we consider 
extremely dangerous to our interests in Afghanistan and 
elsewhere--the Haqqani network a prime example of that.
    So there's a balance. But the F-16s have been a critical 
part of the Pakistani fight against the terrorists in the 
western part of their country and have been effective in that 
fight and Pakistan has lost some 50,000 people in the last 
years including troops to the terrorists that are threatening 
Pakistan itself.
    So it's always complicated. We try to be sensitive to the 
balance, obviously, with respect to India but we think the F-
16s are an important part of Pakistan's ability to do that.
    Mr. Bera. Great. Let me shift now. As one of the few 
physicians in Congress I do have a real interest in global 
health and looking at the current threat of Zika virus.
    You know, we're grateful to have Dr. Frieden and Dr. Fauci 
and representatives of USAID in committee a few weeks ago. As 
we're looking at Zika and as we're gathering, you know, 
information I know the President has requested $1.8 billion.
    One thing, as a physician, you know we know and very much 
so are recommending if you're pregnant, if you're of 
reproductive age, to take all precautions.
    Obviously, the one thing that we do know is making access 
to full family planning services available in areas where we 
know there's endemic Zika and, you know, within USAID's 
purview, within the $1.8 billion request I'd be curious--again, 
the one thing that's empowering women of childbearing age to 
have full family planning support services, whether that's 
birth control, whether that's--you know, we're seeing 
increasing cases of sexual transmitted Zika virus as well.
    So I'd be curious and I would want to make sure that we are 
providing the full resources in these endemic countries.
    Secretary Kerry. We are doing an enormous amount, 
Congressman, and I really appreciate the expertise you bring as 
a physician and your concern about this.
    The President is extremely focused on the Zika virus 
challenge. The White House National Security Council is 
actually coordinating the all of government response on this 
and together, with the World Health Organization with whom we 
are working very closely in its regional offices for the 
Americas, for the Pan American Health Organization, we're 
working with relevant international organizations and others.
    The President has emphasized the need to accelerate 
researcher efforts to make better diagnostic tests available, 
to develop vaccines, medicines, improve mosquito control 
measures, and ensure that all citizens have the information 
that they need in order to be able to deal with the virus.
    So we are using multiple lines of effort--an all out 
effort. We do not want this, obviously, to become as 
challenging as ebola was and, as you know, we mounted a 
response to that and the same kind of effort is being put into 
this.
    Chairman Royce. Mr. Ron DeSantis of Florida.
    Mr. DeSantis. Good morning, Mr. Secretary.
    Congress recently passed a trade authority bill that, among 
other provisions, instructed our trade negotiators to oppose 
any boycotts of Israel including persons doing business in 
Israel or in Israel-controlled territories.
    And yet your spokesman recently said that the State 
Department rejects that provision and does not believe that 
Congress can conflate Israel with disputed territories.
    So my question is is why won't the administration honor 
Congress' enactment.
    Secretary Kerry. Well, I'm not sure exactly what statement 
you're referring to or what happened with respect to that. I 
think we do honor legislation. But----
    Mr. DeSantis. So you would say your negotiators--if a 
European country was saying that they wanted to boycott people 
or businesses that are----
    Secretary Kerry. We don't--we don't support----
    Mr. DeSantis [continuing]. Doing business over the green 
line you think you would not fight against that?
    Secretary Kerry. We do not support any boycott efforts. 
We've been openly opposed to them. We opposed them at the U.N. 
We're opposed to them elsewhere. We oppose labeling. We don't 
believe that's----
    Mr. DeSantis. So you--so you don't--well, good. Well, maybe 
he was not----
    Secretary Kerry. That's why I said I don't know what the 
response is that----
    Mr. DeSantis. Okay. Good. Because I think that that's 
great.
    Well, the labeling though I'd like to follow up on that 
because your spokesman, Mr. Kirby, said that the U.S. doesn't 
oppose labeling of Israeli products from the disputed 
territories.
    And so State Department does not view labeling as a boycott 
of Israel. And the problem with that is, you know, once you go 
down the road of doing the labeling that's really a 
precondition for countries to be able to boycott Israel.
    So he suggested that the State Department is not opposed to 
European efforts to require Israel to label goods that are 
outside of the green line.
    Are you saying that that's not the position?
    Secretary Kerry. Well, labeling--we don't do--no, that kind 
of labeling actually--I mean, we require labeling of where 
people send goods from.
    We require labeling of goods that come into the United 
States.
    Mr. DeSantis. But if someone sends it from a Jewish 
community outside of the green line and they say made in 
Israel, the State Department's position for him would be like 
it was fine--it would be fine to force them to say that that 
was produced in the West Bank.
    Secretary Kerry. Yes. Labeling it from the West Bank is not 
equivalent of a boycott.
    Mr. DeSantis. But it sets a precondition for a boycott.
    Secretary Kerry. Labeling is equivalent of knowledge to 
people so that they can, you know, have the information about 
where products come from which we require also, by the way.
    You know, we have Made in America, Made in China.
    Mr. DeSantis. But I think it sets the--but these are 
disputed territories and you have Jewish communities there 
where they're producing goods and they label it as made in 
Israel.
    Secretary Kerry. I understand that, which is why we are 
opposed--we are opposed to any boycotts or any efforts to 
isolate Israel based on where--we're opposed to that.
    Mr. DeSantis. Well, good. I think you--I mean, I appreciate 
you saying that forthrightly because I think we've been getting 
mixed signals from the State Department.
    In terms of funding, over the last several years about $1 
million has gone to this new Israel fund and that's an 
organization that supports BDS. Do you think it's appropriate 
that money that the State Department is dispensing in grants be 
used for organizations that support BDS?
    Secretary Kerry. I'm not familiar with that. It's news to 
me and I'll take it under advisement and review it.
    Mr. DeSantis. We'll get that. There's a movement to boycott 
Israel on a lot of college campuses throughout the United 
States.
    Do you view that as helpful for America's diplomatic 
relations with Israel and other nations in the world and do you 
think it's appropriate that U.S. taxpayers are funding 
universities that take an official position in favor of BDS?
    Secretary Kerry. I believe in academic freedom. I believe 
in student freedom to take positions. It's a time honored 
tradition in the United States of America that we don't punish 
positions people take----
    Mr. DeSantis. What about an institutional position?
    Secretary Kerry. We, as a government, make our position 
clear that we do not believe it is helpful to be boycotting. 
But people have the right in America, thank God, to be able to 
make their own decisions and we as a government do not punish 
students for the----
    Mr. DeSantis. Well, I don't think it would be punishing 
students. I think it would be if the university adopted an 
official position that they were going to boycott Israel would 
then--we would want to subsidize that with taxpayer dollars.
    Secretary Kerry. I also--that's, obviously, a debate for 
Congress. But I would not advocate or support any challenge to 
the freedom of the university to make its own decisions and I 
think punishing them would be in appropriate.
    Mr. DeSantis. Now, money that goes to the Palestinian 
Authority directly under Federal law requires the State 
Department to certify that the Palestinian authority is acting 
to counter incitement of violence against the Israelis and I've 
noticed that the last several years the State Department has 
not made that certification. Is that correct?
    Secretary Kerry. I wasn't aware we hadn't certified the 
last couple of years but we are following constantly the 
incitement issue.
    I just met with President Abbas and raised the issue with 
him a couple weeks ago and we are working through our 
relationships and constant engagement on the West Bank to make 
sure that the incitement is not taking place in any official 
ways.
    Mr. DeSantis. I think the worry is is that the 
certification has not been made so that would prohibit funds 
directly. But the State Department has been directing funds to 
the Israelis to pay down the Palestinian debts. And the 
question is, is that trying to get around the spirit of the 
law?
    Secretary Kerry. No, it's trying to sustain the one entity 
in the West Bank that is committed to peaceful resolution and 
to nonviolence and to two-state solution.
    The fact is that there are many, many difficulties 
financially in the PA's ability to be able to meet its needs 
for education, for health, for the standard process of trying 
to govern the West Bank.
    And these have been particularly difficult last year and a 
half or so, as you know, with violence that has risen. We 
condemn the violence completely.
    I might add, I was extremely disturbed to read today that 
Iran has agreed to pay the families of people who've engaged in 
violence and people who have been ``the martyrs'' of the 
violence that's taken place.
    That is completely inappropriate and seems to lend some 
sort of credibility to that violence and to those choices and I 
think it's the wrong choice by Iran, and we strongly urge any 
kind of incitement of any kind and that even in its own way can 
be a form of incitement.
    You're going to have eternal support, the families will be 
fine and this is okay behavior. It's not okay behavior. But 
President Abbas is committed to nonviolence.
    He is the one leader in the West Bank who has consistently, 
even in the middle of the violence, even in the middle of the 
Gaza war previously, condemned violence as a means of trying to 
achieve the Two States.
    We believe that trying to build the Palestinian Authority 
and give them greater capacity to be able to control their own 
security, be able to build their capacity is the way to 
ultimately move toward solving the problem of the violence 
itself.
    Chairman Royce. I'll remind the members we need to stick to 
5 minutes. And we'll go to Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary for being here with us today.
    I'd like to follow up on Dr. Bera's questions with regard 
to the F-16s in Pakistan. Judge Poe and I recently sent you a 
letter expressing our grave concerns about this potential sale 
and asking you to consider stopping it.
    In our view, rewarding Pakistan with such a sale when in 
fact they have not changed their harboring and support of 
terrorists within Pakistan, whether you talk about the 2011 
statements by Admiral Mullen then talking about how the Haqqani 
network is a veritable arm of the Pakistani ISI or his 
statements that the ISI played a direct role in supporting the 
deadly attack on our Embassy in Kabul in 2011 or to the recent 
release of the mastermind of the 2008 Mumbai attack, both for 
security reasons and their actions in supporting these 
terrorists as well as the relationship that you and others have 
focused on and recognize as important with India. Is this 
something that you would be willing to reconsider, given all 
these factors?
    Secretary Kerry. Well, Congresswoman, I'd like to talk to 
you sort of in a classified setting, if we could, because I 
think there are some considerations that I can't go into here.
    I would say to you that I share the concern, as everybody 
does--I mean, the President, all of us are deeply concerned 
about ISI relationships, deeply concerned about the Haqqani 
network's freedom to be able to have operated and we've had 
very recent conversations with respect to that.
    And I think in fairness, because of the nature of those 
conversations I'll follow up with you, and I will definitely 
follow up with you in a way that we can discuss this.
    Ms. Gabbard. That would be great. I'd appreciate that.
    The last time that I met with you in my district in Hawaii 
we met at the East-West Center. It's a place that you know has 
been instrumental in creating dialogues between leaders amongst 
many of these Asia Pacific nations at a critical time when 
we're facing potential Destabilization within the South China 
Sea, North Korea, island nations in the Pacific and the 
challenges they're facing.
    The funding has been reduced this year for the East-West 
Center. I wonder if you can talk about why that is as well as 
why the funding was moved from its own line item into education 
and cultural exchanges and what impact that will have on the 
center's ability to continue to play this important role in the 
Asia Pacific region.
    Secretary Kerry. The reason, Congresswoman, is there's no 
policy shift whatsoever in reducing the importance of or the 
commitment to the East-West Center.
    But beginning in 2017 the funding was going to be requested 
under the ECA appropriation rather than as a separate East-
West, you know, Center appropriation as in previous years.
    And I think the President's 2017 request is $10.8 million. 
You're right, it's below the actual level of 2015 and 
appropriated level but I think, you know, it reflects just 
touch choices that we have with the budget that we have.
    Not everybody is getting as much as they did the year 
before. But it is not a reflection of some sort of downward 
trend.
    It reflects the difficulties of the current budget choice 
and, you know, we will maintain our consistent support for the 
East-West Center going forward. I can guarantee you that.
    Ms. Gabbard. Thank you, Mr. Secretary. I've got a lot more 
questions. Unfortunately, we don't have much more time.
    One issue that I'd like to follow up with you and your 
staff on is the budget request within your budget that goes 
toward train and equip programs within both Syria and Iraq and 
the concern about how those funds are being used, who they're 
supporting in training as well as what coordination is 
occurring between State and the DoD program and other agencies 
that are using this funding and toward what objective.
    You know, the concern we've raised consistently over time 
about whether or not these funds are being used to overthrow 
the Syrian Government of Assad versus fighting and defeating 
Daesh on the ground there and other--al-Qaeda, al-Nusra and 
these other extremist groups.
    We don't have time for this now but this is something I 
think is important that we want to examine as we look at the 
budget for the State Department.
    Thank you.
    Secretary Kerry. Look forward to working with you on it. 
Thank you.
    Chairman Royce. Thank you.
    We'll go to David Trott of Michigan.
    Mr. Trott. Thank you, Mr. Chairman.
    Mr. Secretary, the Coptic Christians have experienced some 
of the worst attacks in their modern history and we sent a 
petition to the White House urging that they designate the 
Muslim Brotherhood as a terrorist organization.
    In a response to that, the administration said we have not 
seen credible evidence that the Muslim Brotherhood has 
renounced its decades-long commitment to nonviolence.
    Does the administration still believe that the Muslim 
Brotherhood is a nonviolent organization?
    Secretary Kerry. As a whole, it's very hard, obviously, to 
wrap everybody into the same pot.
    There are, clearly, Muslim Brotherhood members who are 
engaging in violence. We know that, obviously.
    Mr. Trott. So the administration does not recognize them as 
a terrorist organization. The State Department welcomed them on 
an official visit last year. Days after----
    Secretary Kerry. No. No, that--there was a member or two 
who were part of the delegation that was that attended and 
nobody knew, you know, what membership anybody had with respect 
to that.
    Mr. Trott. Okay. Well, days after their visit they released 
a statement calling for a long uncompromising jihad in Egypt 
and 2 days later there was a major attack on the Sinai 
peninsula.
    What should I tell and who should I explain the 
administration's policies and actions with respect to the 
Muslim Brotherhood to the 750 Coptic Christian families in my 
district? How should I explain the actions that we're taking to 
address the atrocities?
    Secretary Kerry. We'll, we're leading the fight. I think 
you can tell them that there's no country doing as much to 
fight against violent extremism, to counter violent extremism 
as the United States.
    We are the ones who have put together the global initiative 
on countering violent extremism. It's a President Obama 
initiative. He's led it at the United Nations. We've had major 
conferences and meetings on this issue and all violent 
extremists are brought into the purview of these efforts as a 
result of that initiative.
    In addition, we're leading the coalition in the fight 
against Daesh, against al-Qaeda, against anybody appropriately 
designated as a violent broadly-based organization.
    We continue to carefully assess the status of the Muslim 
Brotherhood writ large as to whether or not it meets the 
specific legal criteria as set forth in the terrorist 
organization with designation requirements.
    That's--you know, while there are individual members that 
have engaged in violence and individual branches the 
organizations writ large under its overall heading has not 
expressed a commitment to that kind of activity. So it's 
difficult. How do you--you know, we're looking at it.
    Mr. Trott. Thank you, sir.
    Let's switch to the President's plan to close Guantanamo 
and we haven't received many detailed about that.
    We've heard the cost estimate is $300 million to $500 
million to do the construction necessary to move the detainees 
and hold them here. No explanation has been forthcoming in how 
you resolve the conflict between that plan and the ban to move 
the detainees under the National Defense Authorization Act.
    Two days ago, one of the former detainees was arrested in 
Spain for apparently plotting to carry out an ISIS attack in 
Spain.
    So at a high level, do you believe that closing the prison 
in Guantanamo makes America and Americans safer?
    Secretary Kerry. Yes, I do. I'm convinced it makes us safer 
because I think it's been an incredible recruiting tool and I 
don't think it adheres to the values of our country to have 
people held in a military prison 14 years after they were 
``apprehended'' without any charges or any evidence.
    Mr. Trott. So you believe the--as far as the recruiting 
tool, someone gets radicalized and joins ISIS because they are 
singularly motivated by this terrible situation in the prison 
in Guantanamo? Is that what drives someone to make that 
decision?
    Secretary Kerry. Let me ask you something. Do you remember 
seeing people in orange jumpsuit in the desert having their 
heads cut off? Where do you think the orange jumpsuit came 
from? They came from Guantanamo. That was the image across the 
Arab World.
    So yes, unequivocally, it is not accident.
    Mr. Trott. And is Guantanamo--the naval base in 
Guantanamo--is it going to end up like the Panama Canal? If we 
move the detainees out of there is there going to----
    Secretary Kerry. No discussion----
    Mr. Trott [continuing]. Any plan to close that and give it 
to Cuba?
    Secretary Kerry. No discussion. I would personally be 
opposed to that. There's no discussion that I'm aware of. No, 
that is not what is at stake here.
    What is at stake here is living up to our values. I mean, 
it seems to me----
    Mr. Trott. We can live up to our values without closing the 
prison though. We can just correct the mistakes that were made 
and make sure they don't happen again.
    Secretary Kerry. I think Guantanamo now has such a imprint 
in the world and as I said, those jumpsuits didn't come out to 
the imagination of Daesh. They came out of the images of 
Guantanamo. I believe we need to----
    Mr. Trott. And last question since I'm running out of 
time----
    Chairman Royce. We're out of time but the last questions 
could be in writing.
    We go to Brian Higgins of New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Secretary, the continent of Africa--in 55 countries, a 
population of 1 billion people. That population is expected to 
double by the year 2015. And a lot of failed states, 
particularly in central Africa.
    We see the introduction of ISIS in Libya. We see the 
terrorism of Boko Haram in Nigeria and we see the tearing apart 
of the newest country in the world, in South Sudan, with a 
population of some 11 million people.
    The U.N. reported that in South Sudan soldiers with 
government uniforms were entering United Nations mission in 
South Sudan, a protection of civilian camps, firing on 
civilians and killing many of them, creating great instability.
    So I think when you look at, you know, particularly the 
activity of nonstate terrorist actors--ISIS and Boko Haram, 
which seemingly are now moving toward--away from the 
traditional ways of gaining revenue and toward territorial 
control, to tax, to charge protection of people, the continent 
of Africa, I think, poses great, great challenges to the United 
States.
    What in this budget and what is the vision for the 
Department of State with respect to continuing and rebuilding 
that continent which, I think, has a lot of trouble spots right 
now?
    Secretary Kerry. That's a great question and I really 
appreciate it.
    I would say just about everything that we're doing with 
respect to our development policy, our countering violent 
extremism policy, our aid policy, our military to military 
assistance policy is all directed at this. We're deeply, deeply 
involved.
    The President was in Africa. I was in Africa. We had many 
of our cabinet Secretaries traveling there. We're working on 
Power Africa because we are trying to get electricity into 
communities that don't have electricity so they can begin to 
develop and provide health capacity, provide education and fill 
the void that exists for a lot of young people who otherwise 
get their heads filled in a very calculated strategy by 
extremists to reach them.
    When I was--let me give you an example--when I was in 
Ethiopia, in Addis Ababa, I met with the Foreign Minister there 
and I asked him, you know, how they managed their sort of 30, 
35 percent population that is Muslim.
    And he said increasingly they were concerned about it 
because what happens is an extremist cell will go out and 
target young poor kids and pays them initially and they would 
pay them and then bring them in, proselytize, fill their heads 
with this distortion and then they don't need to pay them 
anymore because they're ready to operate based on what's been, 
you know, washed into them, what's been inculcated into them.
    And then they go out and start replicating this recruitment 
process. And what he said to me is they don't have a 5-year 
plan.
    They have a 35-year plan. They're ready to keep building 
this. And so, you know, we have to think about this, I believe, 
and this is what the President is trying to embrace in his 
countering violent extremism strategy, that we've got to 
recognize that failed or failing states that have no revenue, 
that can't build a school, that can't provide health, that 
can't organize the community, that can't even build their own 
security structure to fight back against these radicals are 
going to require some help.
    Now, after World War II we had a thing called the Marshall 
Plan where we rebuilt countries that had fallen into absolute 
economic despair as a consequence of the war and even rebuilt 
our former enemies--Japan and Germany.
    Look at the difference it has made today. That is the 
greatest success story statement about why investment and why 
this engagement is critical.
    In Africa, we need to engage more. We need to be able to 
help them. We're fighting--helping Nigeria now deal with Boko 
Haram. We're fighting to push back against al-Shabaab in 
Somalia. We have a U.N. mission in Somalia.
    It needs more help. It needs more people, more assistance. 
We had al-Shabaab on the ropes last summer. But now there's 
sort of reductions and so they push back.
    This is a long-term constant struggle and I believe that 
the security of the United States of America is absolutely at 
stake in the choices we make in order to fill--help fill these 
voids. Not do it alone.
    The work through these global institutions in order to push 
back against this potential vacuum that invites failure and 
violence and extremism to fill the void. And I hope people will 
see this budget in that entire context. There are so many 
different things, what we're doing on AIDS, what we did with 
Ebola, what we do in terms of our broad based entrepreneurial 
encouragement, what we do with the program the President 
started for young African leaders in order to bring them here 
and help them to train and learn.
    All of these things are good solid investments for the 
long-term future and security of our country.
    Chairman Royce. I go to Mr. Lee Zeldin of New York.
    Mr. Zeldin. Well, thank you, Mr. Chairman, and Mr. 
Secretary, thank you for coming back in front of the committee. 
I wanted to discuss the Iran nuclear agreement.
    The President has stated that the nuclear agreement is not 
based on trust but is based on verification. This past Monday I 
received a letter from your talented Assistant Secretary for 
Legislative Affairs. I just wanted to discuss a couple of 
components of that. Thank you for the response.
    In the letter, it says that the Iran nuclear agreement 
``relies on the unprecedented monitoring and verification 
measures.'' The letter further refers to ``an unprecedented 
IAEA monitoring and surveillance'' and legally binding 
obligations under the additional protocol to Iran's safeguards 
agreement with the IAEA.
    My first question, Mr. Secretary, is have you read the 
Iran's safeguards agreement with the IAEA?
    Secretary Kerry. Yes.
    Mr. Zeldin. And how can--how can I access that?
    Secretary Kerry. Well, I've been briefed on it, put it that 
way. It was read by our staff when we were there. I didn't read 
the entire thing but I was briefed full on what the contents 
are.
    Mr. Zeldin. Has the President read it?
    Secretary Kerry. I can't speak to that. I don't know. I 
don't think so because I think it's in Vienna.
    Mr. Zeldin. There's actually--if you visit the IAEA Web 
site they have a link to access the Iran safeguards agreement. 
When you click the link it goes to the next page and it says 
sorry, the information--it's some type of a broken link.
    But I would be I interested in reading that safeguards 
agreement. Would that be possible?
    Secretary Kerry. I don't know. I think that's part of--
what? Yeah, that's the part--there's a--the safeguards 
component we were briefed on and we worked on and we were 
satisfied with. But it is part of--it's a confidential--it is 
always traditionally between every country including us, we 
have an agreement. But ours is confidential. Other countries 
can't go read our agreement with the IAEA and that's the way 
the IAEA works.
    But we, as I say, were briefed on it so that we had a sense 
of what was included, what needed to be included was satisfied 
because it was critical in the context of this. But we don't 
possess it.
    Mr. Zeldin. The members of your staff have read it. You 
haven't asked to read it yourself?
    Secretary Kerry. No. I was fully briefed on it at the time. 
I was in Vienna and I was there on the last--obviously, on the 
last day. This was of high concern to us. I believe then Under 
Secretary Wendy Sherman and others went over and met with the 
IAEA and then they came back and briefed me out on it. But I 
didn't feel that it was imperative at that point.
    Mr. Zeldin. And you feel comfortable stating that there's 
unprecedented IAEA monitoring and surveillance and verification 
measures----
    Secretary Kerry. With one caveat, yes. With one caveat. 
There is unprecedented allowance for that full measure of 
intrusive oversight and access.
    The key now will be to plus up the IAEA budget. We have the 
license for 130 or so additional inspectors to be permanently 
in Iran. There's a permanent office in Iran. But the IAEA is 
going to need resourcing to meet this.
    Now, we've always banked on the fact that's got to happen 
and it will happen. But I just want to signal that that is an 
imperative component of this.
    Mr. Zeldin. You know, I'm just--I'm concerned when there 
are reports that start coming out that says that the Iranians 
collect their own soil samples, that the Iranians inspect some 
of their own nuclear sites and we have this opportunity to have 
the Secretary here in front of the committee and these are very 
concerning reports.
    I would love to be able to get confirmation as to whether 
or not you've read that in there.
    Secretary Kerry. We have the right under the agreement, 
under the assumption of the additional protocol, the additional 
protocol you can read that is--that is a public document.
    The additional protocol was negotiated by the IAEA, was put 
in place as a consequence of what failed in the framework 
agreement with respect to North Korea.
    And the lesson of that was there has to be the ability to 
follow up and have access in order to investigate any suspected 
or suspicious sites.
    Mr. Zeldin. Mr. Secretary, I apologize.
    Secretary Kerry. So--no, I'll just finish quickly.
    So we have a right of access. The IAEA has a right of 
access for any suspicious site not to be collected by the 
others, not--that they themselves have the right of access.
    Mr. Zeldin. Mr. Secretary, why don't you ask for a 
signature for Iran on the nuclear agreement? Why didn't you ask 
Iran to sign the nuclear agreement?
    Secretary Kerry. Well, I believe they did sign.
    Mr. Zeldin. Well, the letter that you sent said it's not a 
signed agreement. I mean, it specifically states, as a matter 
of fact, that----
    Secretary Kerry. It was signed--it was signed--excuse me. 
Iran did sign. The Vice President of Iran, Ali Saleh, went over 
to the IAEA and signed the agreement at the IAEA headquarters.
    Mr. Zeldin. Okay. Just----
    Secretary Kerry. He signed it the morning before the 
implementation before the agreement was announced.
    Mr. Zeldin. The reason why I was asking is it says that 
JCPOA is not a treaty or an executive agreement.
    Secretary Kerry. That's accurate.
    Mr. Zeldin. It is not--and it is not a signed document.
    Secretary Kerry. That is accurate. It's not a treaty. It is 
a political agreement. But the actual agreement between the 
IAEA and Iran is signed and that is a legal obligation.
    Mr. Zeldin. But the Iran nuclear agreement, the JCPOA, the 
P5+1, whatever we call it, is not signed by----
    Secretary Kerry. That is a political agreement, correct. 
But it is----
    Mr. Zeldin. Well, the question is why----
    Secretary Kerry. Whoa, whoa, whoa.
    Mr. Zeldin. Why didn't we ask Iran to sign it?
    Secretary Kerry. Because it is a political agreement with 
force of law behind it--international law--because it has been 
embraced in and fully adopted by the United Nations and the 
United Nations Security Council. So that is why it has force of 
law and that is why the snap back is a particularly forceful 
provision in the context.
    Chairman Royce. We need to go to Mr. William Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman.
    Thank you for your service, Mr. Secretary.
    As ranking member on the Terrorism, Nonproliferation, and 
Trade Subcommittee in this committee, I want to focus on 
terrorism for the purpose of this questioning.
    And I want to really focus on the fact that this is a 
budget hearing and one thing I'm aware of and I think most 
experts agree with, taxpayers get the most--it's most cost 
effective for taxpayers and most experts will say most 
effective--is the work that we do in those areas where 
terrorism is likely to incubate, maybe just starting to 
incubate or moving out and metastasizing. I just want you to 
comment on a couple of things.
    Number one, we had King Abdullah here talking to some of 
the members of the committee a while ago and he identified 17 
fronts, which we generally agreed upon in the world, where ISIL 
and other groups are a great threat.
    But if you could, I just want, if you could comment on some 
of the areas where it's ripe for incubation or incubation in 
the world, what those geographic areas would be, whether it's 
Indonesia, Somalia, Bangladesh--you know, areas that we might 
not think of.
    Number two, how we approach that is so important and it's 
important for this hearing this morning because I think the 
most effective things we can do in those areas before things 
incubate, before they metastasize is to look at what we can do 
as a country with our resources to intervene.
    Now, I think, clearly, you touched upon some of the 
economic areas that we could do it. I also think in terms of 
human rights, if you could comment on how we're utilizing an 
increased role for women and mothers in trying to deal with 
this issue in those type of situations.
    And also in terms of the narrative, the extremists--the 
counter extremists' narrative that we really want to pursue 
with its broadcast social media, something I think we're 
getting beaten on a little bit now globally in some areas. So 
those are the kind of things that we get the most bang for the 
buck.
    And those are the things that keep us the safest and are 
the most effective. So if you could take a few minutes and 
comment on geographically where you think there are some areas 
of concentration we may not think of first off the top of our 
heads and how we can deal with it economically from a human 
rights perspective and from a counter extremist narrative.
    Secretary Kerry. You know, Congressman, I really appreciate 
the question and I want to try to answer it carefully because I 
don't want the speculation or statement to become the father to 
the fact.
    Mr. Keating. I understand.
    Secretary Kerry. So I don't want to run through a whole 
bunch of potential incubator locations that some people may not 
have thought about yet.
    But I think generically I would simply say to you that 
where you have a poor population, where you have a bad 
governance, where you have corruption, where you have a lack of 
opportunity, a lack of education, and you have a population 
that may be particularly susceptible to a religious extortion--
distorted narrative you have potential, obviously. And there 
are plenty of places where, unfortunately what I just described 
is the fact today.
    Now, the key here is the latter part of your question 
dealing with the narrative, because the narrative left 
unattended can be very attractive.
    Where you have corruption and where you have lack of 
opportunity and if a void gets filled with that narrative 
without the truth, without, you know, facts to the contrary, it 
can start to take hold and it has and it does and we see that 
in various places.
    So we are now very, very focused. Part of our strategy to 
fight Daesh, al-Qaeda, and others, is to do a much better job 
with the counter narrative.
    Under Secretary Rick Stengel has been deeply involved in 
this, working with other countries, working with our best young 
talented communicators in America beginning to fight back on 
the social media, for instance.
    There is a center that is opened in the Emirates, in Abu 
Dhabi--the Sawab Center--that the Emirates is engaged in and 
supporting, which has a bunch of young folks in there and 
obviously mostly Arabic speaking and other language speaking 
who are able to communicate the counter narrative.
    We've actually taken people who are disaffected from Daesh 
and put them on the social media who have told the story of how 
they were exploited, raped, or made slaves and somehow they 
have--by the way, many of those have been executed when they 
are disaffected and try to leave.
    But those who have made it out are powerful testimony to 
the contrary.
    So we're doing a lot of that. Saudi Arabia is about to open 
a similar communication center. Malaysia will, others. So there 
are lots of places where the communications effort is as 
critical as anything in preventing future recruits from being 
created and we're working very hard at that.
    Chairman Royce. I need to go to Mr. Jeff Duncan of South 
Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    Secretary Kerry, you seem to have an affinity for Iran that 
I don't share. Going back to 1979, Iran has shown a strong 
animosity for America.
    They regularly chant death to America and recently tried to 
humiliate United States sailors. They're the world's largest 
state sponsor of terrorism and we just gave them billions of 
dollars, upwards of $150 billion which they could possibly use 
to continue to export terrorism around the globe.
    Will we ever learn? I just hope that that lesson, that 
incumbent the cost of American lives through an act of terror 
backed by Iran.
    I'd love to go back to something Chairman McCaul was 
touching on earlier and that's H.R. 158, the Visa Waiver 
Program Improvement and Terrorist Travel Prevention Act.
    There were three areas that were exceptions under the law. 
Military service, government travel, and national security and 
law enforcement were exceptions for the visa waiver issue.
    During the negotiations, as the chairman pointed out, the 
State Department asked for other exemptions and they were 
explicitly denied in the law signed by the President.
    So in that, Mr. Secretary, there are national security and 
law enforcement waivers. Could you please define for me your 
interpretation of national security and law enforcement?
    Secretary Kerry. Sure. Let me just, if I can, with your 
indulgence I just want to make it clear I don't have an 
affinity for any country that is engaged in activities that are 
counter to our values and that put our people at risk and that 
are supporting terror.
    There's no affinity whatsoever. My job as the Secretary of 
State and as a diplomat is to try to find solutions to problems 
that don't involve, if at possible and we can achieve our 
goals, sending young people into conflict--going to war.
    War is the failure of diplomacy to solve a problem. So we 
looked at Iran and we saw them about to be putting us in a 
situation where they may have the nuclear weapon, which would 
be bad for everybody in the world, particularly our friends 
closest to them.
    Mr. Duncan. Mr. Secretary, I appreciate you making that 
clear.
    Secretary Kerry. So I just want to make clear----
    Mr. Duncan. But I also understand you sent a letter after 
the visa waiver program law was passed----
    Secretary Kerry. Explaining that it didn't violate JCPOA.
    Mr. Duncan. So explain to me--define national security and 
law enforcement, if you don't mind.
    Secretary Kerry. Sure. We have an interest, obviously, in 
being able to guarantee that Iran, over a period of time, or 
any other country may be able to change--may be able to move to 
a different posture and our belief is from a national security 
point of view that if people are able to do legitimate business 
that over a period of time that changes things.
    We look at what's happening in Vietnam today, for instance, 
or we look at what's happening in Burma, other countries. 
Transformation takes place and we believe that transformation 
is in the national security interests of our country and some 
of it comes from entrepreneurial activity being able to take 
place where people begin to feel better about life, see that 
they're not threatened, do better, travel, see the world and so 
forth.
    Mr. Duncan. Right.
    Secretary Kerry. So in terms of travel, in terms of 
travel----
    Mr. Duncan. Reclaiming my time. That's a good answer, sir, 
but let me--let me reference a----
    Secretary Kerry. We have--we have people--we have friends--
--
    Mr. Duncan. Reclaiming my time.
    Let me reference a white paper that State Department put 
out, sir, that says as discussed in the legal paper, which 
we've asked for a copy of the legal paper referencing this 
white paper and have not seen that yet.
    But it says as discussed in the legal paper this is a 
lesser standard. National security and law enforcement is a 
lesser standard--the department's words, not mine--than was 
imposed by other statutes that require a finding that a waiver 
is vital to or essential to the national security interests of 
the United States.
    Furthermore, there are no findings of fact or other 
determinations required to be made before an exercise of the 
waiver authority.
    Additionally, as discussed in the legal paper yet to be 
seen, the national security waiver can be exercised by 
category, not just individuals.
    So you're going to broaden this to humanitarian and other 
categories that you all asked for during the negotiations which 
were explicitly denied by Congress in the law.
    Secretary Kerry. What we're doing, Congressman, we're not--
I think we've adhered to the discussions that we had because 
we're not doing a blanket waiver.
    We're doing--these are individual case-by-case basis. So 
we're not doing some blanket waiver and I think that's, 
frankly, not only adhering to the standard but it's in our 
interest.
    I mean, we have people--you know, the principal threat that 
we are concerned about of terror from Daesh is not coming out 
of Iran.
    It's coming out of other places, and if some European 
business person or an NGO that happens to be advocating human 
rights travels to Iran and they have a visa waiver with us, 
which by the way has an extraordinarily rigorous standard 
before it's given, we don't lose any--in fact, we have greater 
insight on somebody with that than we do in other cases 
necessary.
    Mr. Duncan. I'm on Homeland Security. I've followed this 
issue for a long time. What this white paper looks like, and 
maybe I'd have a better understanding if you would provide to 
us a copy of the legal paper--Mr. Secretary, this looks like 
you all were trying to find wiggle room to work around the 
intent of Congress and the actual wording of the law.
    My time has expired and you can keep talking if the 
chairman will let you. But I appreciate it.
    Secretary Kerry. Where did the white paper come from? I'm 
sorry. I missed that.
    Mr. Duncan. It's called the Visa Waiver Program Waiver 
Recommendation Paper and it's a State Department document and 
it references in there twice that I know a legal paper which 
helped to determine your findings here.
    Please provide us a copy of the legal paper and maybe this 
will be a nonissue.
    Thank you. I yield back.
    Secretary Kerry. Yes, sir. Will do. Okay.
    Mr. Chairman, thank you.
    Chairman Royce. Thank you. Thank you, Mr. Secretary, and we 
will continue looking at your budget. Your department has many 
good programs that need to be supported.
    But as I said in my statement, even good programs may not 
be able to get the level of support we'd all wish, given our 
deficit.
    We will work at doing the best job we can with Embassy 
security a priority and I for one am particularly supportive of 
your initiatives promoting women's education and social status 
in the developing world.
    On the Iran deal, I'm afraid the dam has been broken with 
foreign investment rushing in and in the real world it will not 
be reversible if and when Iran cheats. But that is a continuing 
discussion.
    Mr. Rohrabacher had a question for the record, which will 
be submitted without objection. It's on the subject of the 
release of Dr. Afridi. We all hope and want to see Dr. Afridi 
released immediately.
    The problems and threats but also the opportunities we face 
are great. The committee looks forward to its continued work 
with you to strengthen our nation's security and thank you 
again, Mr. Secretary, for being with us today.
    Secretary Kerry. A pleasure.
    Chairman Royce. We stand adjourned.
    Secretary Kerry. Thank you, Mr. Chairman.
    [Whereupon, at 12:44 p.m., the committee was adjourned.]

                                     
                                  

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
